<html>
<title> - VIEWS OF VETERANS' SERVICE ORGANIZATIONS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





                VIEWS OF VETERANS' SERVICE ORGANIZATIONS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                  VETERANS AFFAIRS, AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 18, 1999

                               __________

                            Serial No. 106-9

                               __________

       Printed for the use of the Committee on Government Reform


     Available via the World Wide Web: http://www.house.gov/reform

                                 ______


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
67-052                     WASHINGTON : 1999


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
JOHN T. DOOLITTLE, California            (Independent)
HELEN CHENOWETH, Idaho


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

Subcommittee on National Security, Veterans Affairs, and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
ILEANA ROS-LEHTINEN, Florida         TOM LANTOS, California
JOHN M. McHUGH, New York             ROBERT E. WISE, Jr., West Virginia
JOHN L. MICA, Florida                JOHN F. TIERNEY, Massachusetts
DAVID M. McINTOSH, Indiana           THOMAS H. ALLEN, Maine
MARSHALL ``MARK'' SANFORD, South     EDOLPHUS TOWNS, New York
    Carolina                         BERNARD SANDERS, Vermont 
LEE TERRY, Nebraska                      (Independent)
JUDY BIGGERT, Illinois               JANICE D. SCHAKOWSKY, Illinois
HELEN CHENOWETH, Idaho

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                Robert Newman, Professional Staff Member
                Marcia Sayer, Professional Staff Member
                        Jonathan Wharton, Clerk
                    David Rapallo, Minority Counsel

                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 18, 1999...................................     1
Statement of:
    Robertson, Steve, director, National Legislative Commission, 
      the American Legion; Dennis Cullinan, director, Legislative 
      Services, Veterans of Foreign Wars; David Woodbury, 
      national service director, AMVETS; Richard Wannemacher, 
      Jr., associate national legislative director, Disabled 
      American Veterans; Rick Weidman, director of Government 
      Relations, Vietnam Veterans of America; and Paul Sullivan, 
      executive director, National Gulf War Resource Center......    11
Letters, statements, etc., submitted for the record by:
    Cullinan, Dennis, director, Legislative Services, Veterans of 
      Foreign Wars, prepared statement of........................    26
    Filner, Hon. Bob, a Representative in Congress from the State 
      of California, prepared statement of.......................     4
    Robertson, Steve, director, National Legislative Commission, 
      the American Legion, prepared statement of.................    14
    Sullivan, Paul, executive director, National Gulf War 
      Resource Center, prepared statement of.....................    77
    Wannemacher, Richard, Jr., associate national legislative 
      director, Disabled American Veterans, prepared statement of    44
    Weidman, Rick, director of Government Relations, Vietnam 
      Veterans of America, prepared statement of.................    61
    Woodbury, David, national service director, AMVETS, prepared 
      statement of...............................................    36

 
                VIEWS OF VETERANS' SERVICE ORGANIZATIONS

                              ----------                              


                        THURSDAY, MARCH 18, 1999

                  House of Representatives,
       Subcommittee on National Security, Veterans 
              Affairs, and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 8:32 a.m., in 
room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Souder, Mica, Terry, 
Blagojevich, and Sanders.
    Staff present: Lawrence J. Halloran, staff director and 
counsel; Robert Newman and Marcia Sayer, professional staff 
members; Jonathan Wharton, clerk; David Rapallo, minority 
counsel; and Earley Green, minority staff assistant.
    Mr. Shays. We are going to call this hearing to order.
    Good morning. Our early start today is one measure of the 
importance the subcommittee places on the views of national 
veterans' service organizations. Before the crush of meetings 
and votes overtakes the day, and before our agenda fills for 
the year, we feel it is essential to hear from those who served 
in our country's armed forces and whose daily mission is to 
help others who did the same.
    In previous hearings, the General Accounting Office, the 
Inspector General, and representatives from the Department of 
Veterans Affairs described the many challenges confronting a 
department managing a $43 billion in health, compensation, and 
other benefit programs for more than 25 million veterans and 
their families. They mentioned chronic claim processing delays, 
uncertain health-care quality protections, inaccurate data 
systems, and budget inequities within and between regions.
    Our witnesses today bring a unique perspective to these 
issues. They risked their lives and helped make the United 
States of America the great Nation it is today. It is a 
perspective which provided invaluable to our work and the Gulf 
war veterans' illnesses, and one I know will inform and improve 
our continuing VA in Defense Department oversight.
    Welcome to all of you, and we look forward to your 
testimony.
    What I would like to do is to invite my colleague, Robert 
Filner, from California--he serves on the Veterans Affairs 
Committee and is, I believe, the ranking member--the Benefits 
Subcommittee, an important subcommittee for the issues we are 
dealing with, so I would like to invite him to make a 
statement.
    Then I am going to swear you in, and then we are going to 
hear from you all.
    Mr. Filner. Thank you, Mr. Chairman, and I do appreciate 
your courtesy to allow a Member of the minority to have a quick 
statement. I would like to submit my full statement for the 
record. Second, I want to thank you for all your work in the 
last Congress, and in the coming Congress, on the Persian Gulf 
war illness. You have brought us, more than anyone, closer to 
the truth on this issue. We still have a ways to go, but I 
appreciate your courage and your leadership on this issue. 
Last, your oversight on this issue is very important. You will 
hear from organizations who have put together, not only a 
budget guideline for us to go by, but, of course, their 
lifelong commitment and their organizations' commitment to 
veterans is unquestioned, so when they speak, it is good for us 
to listen. I thank you for providing the forum for them.
    Most of the organizations--I think all the organizations 
before you--have endorsed what is called the Independent Budget 
for the Year 2000, and several played a role in putting that 
budget together. What their budget provided in a very succinct, 
professional, and convincing manner, what do we need to make 
sure that we fulfill our contract with our Nation's veterans?'' 
They concluded that the President's budget was woefully 
inadequate, that approximately $3 billion more was needed just 
to keep even with the present budget. Many of us on the 
Veterans Affairs' Committee agreed with them. The budget, as 
submitted by the President, left the VA healthcare system 
drastically underfunded, in danger of actual collapse. The 
budget for the GI bill is far short of realistic needs and 
failing as a readjustment benefit and as a recruitment 
incentive. Desperately needed staffing increases included in 
the budget appear to be phony, little more than ``shell 
games.'' The National Cemetery system has been underfunded for 
years, and the money needed for the most basic repairs and 
upkeep is unavailable.
    These are drastic problems. This is no way to treat those 
who have made sure that we have a country that is worthy of 
defense. Veterans have been wronged by this budget, and now it 
is time for Congress to right that wrong.
    We need, Mr. Chairman, to unite as a Congress, to unite as 
both parties, to unite with these organizations, to make sure 
an adequate budget is passed by this Congress.
    I think I use a dirty word here, but the ``caps,'' with 
respect to Veterans Affairs, have to be broken. There is no way 
that we can do justice if we are going to stay within the caps 
that were given to us. There is an urgency and frustration in 
the budget and in the testimony of these gentlemen in front of 
you that I have not heard before.
    They are telling us that they have done more than their 
fair share to balance our budget, and now they expect us to be 
their advocates. They are reminding us that America is safe and 
free only because of the hardships and sacrifices that they 
have suffered.
    Let me just read you one statement, Mr. Chairman, from the 
independent budget.

    As the administration and Congress develop budgets and 
policies for the new millennium, we urge them to look up from 
their balance sheets and into the faces of the men and women 
who risked their lives to defend our country. We ask them to 
consider the human consequences of inadequate budgets and 
benefits denials for those who answered the call to military 
service.

I take that to heart.
    They have outlined what is needed for healthcare, the GI 
bill, the benefits package, for Persian Gulf war veterans, Mr. 
Chairman. The funding, for example, in the budget that was both 
presented by the President and most likely will come out of 
Congress as it exists now, does not adequately fund the 
legislation for Persian Gulf war veterans that you put forward 
and was passed by the House and the Senate last year. Without 
that money, the VA system will not be able to absorb the 
additional Persian Gulf war veterans who will be eligible for 
healthcare under the new law that you led the fight for.
    So we have a lot of work to do. I appreciate your kindness 
and courtesy, your courage, your leadership, Mr. Chairman. We 
have to do right by these veterans.
    [The prepared statement of Hon. Bob Filner follows:]

    [GRAPHIC] [TIFF OMITTED] T6397.002
    
    [GRAPHIC] [TIFF OMITTED] T6397.003
    
    [GRAPHIC] [TIFF OMITTED] T6397.004
    
    [GRAPHIC] [TIFF OMITTED] T6397.005
    
    [GRAPHIC] [TIFF OMITTED] T6397.006
    
    [GRAPHIC] [TIFF OMITTED] T6397.007
    
    [GRAPHIC] [TIFF OMITTED] T6397.008
    
    Mr. Shays. Thank you, Congressman Filner. Let me just say, 
this is--I never think of this as a majority or minority. You 
are an equal partner in this process and have been very 
helpful, and I really thank you for being here.
    Mr. Blagojevich is on his way and just wants to make sure 
that we get started.
    So I am going to introduce our witnesses. Mr. Steve 
Robertson, director, National Legislative Commission, the 
American Legion; Mr. Dennis Cullinan, director, Legislative 
Services, Veterans of Foreign Wars; Mr. David Woodbury, 
national service director, AMVETS; Mr. Rich Wannemacher, Jr., 
associate national legislative director, Disabled American 
Veterans; Mr. Rick Weidman, director of Government Relations, 
Vietnam Veterans of America; and Mr. Paul Sullivan, executive 
director, National Gulf War Resource Center.
    I would invite our witnesses to stand and we will 
administer the oath in this committee, and then we will hear 
your testimony. Thank you.
    [Witnesses sworn.]
    Mr. Shays. For the record, all of our witnesses responded 
in the affirmative.
    It is very nice to have Congressman Terry from the great 
State of Nebraska. I always love watching them play football 
among other things.
    Mr. Terry. So do I--[laughter.]
    Mr. Shays. If we could just start in the manner I called 
you. And we are going to hear all your testimony. We don't have 
a light up there. We have a timer here. Let me just tell you 
our restraints. Our restraint is that technically we are 
supposed to adjourn by 9:30. We can go on a little beyond, but 
we are going to be having a top-secret briefing on our defense 
system and one that they have requested that we not have 
hearings during that time, but we can run over a little bit.

 STATEMENTS OF STEVE ROBERTSON, DIRECTOR, NATIONAL LEGISLATIVE 
  COMMISSION, THE AMERICAN LEGION; DENNIS CULLINAN, DIRECTOR, 
LEGISLATIVE SERVICES, VETERANS OF FOREIGN WARS; DAVID WOODBURY, 
 NATIONAL SERVICE DIRECTOR, AMVETS; RICHARD WANNEMACHER, JR., 
  ASSOCIATE NATIONAL LEGISLATIVE DIRECTOR, DISABLED AMERICAN 
   VETERANS; RICK WEIDMAN, DIRECTOR OF GOVERNMENT RELATIONS, 
   VIETNAM VETERANS OF AMERICA; AND PAUL SULLIVAN, EXECUTIVE 
          DIRECTOR, NATIONAL GULF WAR RESOURCE CENTER

    Mr. Robertson. Thank you, Mr. Chairman.
    I am going to try to summarize my statement. I would 
request that my full statement be submitted for the record.
    Mr. Chairman.
    Mr. Shays. Yes?
    Mr. Robertson. My full statement be submitted----
    Mr. Shays. Yes----
    Mr. Robertson [continuing]. For the record, and I will try 
to summarize----
    Mr. Shays. Yes. I am going to wait until my colleague gets 
here to make sure that we make it official that it will be in 
the record, but it--[laughter]--will be.
    Mr. Robertson. OK, sir.
    Mr. Shays. Thank you.
    Mr. Robertson. I am going to summarize my remarks so that 
we can open up the discussion for dialog.
    The last time I took an oath like that, it wound up 20 
years of military service, so I get a little edgy when I have 
to raise my hand.
    Mr. Chairman, the American Legion appreciates this 
opportunity to present testimony on critical issues facing 
agencies and programs within your jurisdiction.
    It is important to remember that the costs of war and peace 
go on long after the guns are silenced, the treaties are 
signed, the dead are buried, and the parades are over. It is 
our service members that take an oath of allegiance to support 
and defend the Constitution at the risk of personal safety. 
They endure many hardships and sacrifices to fulfill that 
promise. What awards and benefits this Nation provides them 
should reflect its gratitude for dedicated service. Medals and 
ribbons are appropriate, but do not heal the mental and 
physical scars of war or make a broken body whole.
    Turning to issues of national security, the first area 
deals with Tricare, DOD's newest version of military healthcare 
delivery. Mr. Chairman, this single issue represents one of the 
biggest lies ever told to service members. If you retire from 
the armed forces, you and your dependents will receive medical 
care from the military, at no cost, for the rest of your lives.
    In 1973, I was commissioned in the U.S. Air Force. This 
promise was made to me and, in fact, was a practiced policy. 
Now, military retirees are allowed to participate in a 
federally subsidized healthcare program called Tricare. The 
degree of healthcare coverage military retirees and their 
dependents receive is based on how much money they are willing 
to--or in many cases, able to--pay.
    As radical as paying for an entitlement seems, they are 
only allowed to participate in this program until they become 
Medicare-eligible. Once they become Medicare-eligible, they are 
ineligible for Tricare. At a point in their lives when demands 
for quality healthcare are the greatest, they lose the very 
healthcare system that they have depended on for the vast 
majority of their adult lives.
    The American Legion is not surprised to hear about the 
recruiting and retention problems of the Armed Forces. After 
all, your best recruiters are your alumni. Should you decide to 
hold hearings on Tricare. The American Legion is prepared to 
participate and offer some workable solutions.
    Mr. Chairman, the next issue is concurrent receipt. The 
American Legion sees this issue as among the greatest 
inequities in the Federal Government. Under current law, if a 
military retiree has a VA service-connected disability, the 
veteran loses $1 of military longevity retirement pay for every 
VA compensated dollar received.
    Military retirees are the only Federal retirees penalized 
in this manner. Concurrent receipt represents a bean-counter's 
compensation concept, not the thanks of a grateful Nation.
    Turning now to the area of veterans' affairs, I must 
express the disappointment in the President's budget request 
for fiscal year 2000 for the VA. The entire veterans' community 
agrees that it is inadequate. The American Legion supports the 
Veterans Affairs Committee's views and estimates to add $1.9 
billion and hope that Members will demand the budget resolution 
reflects such an increase.
    Although VA funding is not directly under your 
jurisdiction, there are three funding mechanisms that need your 
attention: the Medical Care Collection Fund [MCCF], the 
Veterans Equitable Resource Allocation [VERA], and Medicare 
Subvention. All three of these programs directly impact 
veterans' healthcare funding systems. Again, the American 
Legion would welcome the opportunity to participate in any 
hearings you hold.
    Another issue deals with legislation enacted last Congress 
to amend title 38 of the United States Code and now denies due 
process to a small percentage of veterans. Without the benefit 
of congressional hearings, Congress chose to deny some veterans 
their right to receive a service-connected disability rating 
for a medical condition related to their service in the Armed 
Forces. I can't help but notice the picture of Representative 
former-Chairman Brooks up there with his cigar in his hand.
    The group that I am talking about, the American Legion 
adamantly opposes the decision to deny a select group of 
veterans with tobacco-related illnesses their right to receive 
service-connected disability, should they be able to prove that 
it is connected with their military service. This needs to be 
repealed. It was wrong; it was unethical. It was immoral; it 
was flat wrong to do that.
    Another area of great concern is the long-term healthcare 
for both military retirees, their dependents, and veterans. The 
long-term care for military retirees, their dependents, and 
veterans is basically nonexistent. And it is very ironic that 
today, one of your other subcommittees is holding a hearing on 
long-term care for Federal employees, and there is nobody from 
the military there to represent them.
    In the area of international relations, the American Legion 
has two areas of concern--the administration's certification of 
Vietnam and the Orderly Departure Program.
    Thank you, Mr. Chairman, for the opportunity to testify 
today. I hope that this is just the first of many appearances 
before your committee.
    [The prepared statement of Mr. Robertson follows:]

    [GRAPHIC] [TIFF OMITTED] T6397.009
    
    [GRAPHIC] [TIFF OMITTED] T6397.010
    
    [GRAPHIC] [TIFF OMITTED] T6397.011
    
    [GRAPHIC] [TIFF OMITTED] T6397.012
    
    [GRAPHIC] [TIFF OMITTED] T6397.013
    
    [GRAPHIC] [TIFF OMITTED] T6397.014
    
    [GRAPHIC] [TIFF OMITTED] T6397.015
    
    [GRAPHIC] [TIFF OMITTED] T6397.016
    
    [GRAPHIC] [TIFF OMITTED] T6397.017
    
    Mr. Shays. Thank you very much. You covered a lot in 6 
minutes. [Laughter.]
    Mr. Dennis Cullinan.
    Mr. Cullinan. Thank you very much, Mr. Chairman, and 
members of the subcommittee and concerned Members of Congress.
    On behalf of the men and women of the Veterans of Foreign 
Wars, I would express our deep appreciation for inviting us to 
participate in today's important hearing.
    Mr. Chairman, in preparation for this hearing, in 
discussions with your staff, I asked what it was that I should 
address here today. And it was suggested to me that I should 
talk about those things that truly trouble us, as an 
organization, an organization of veterans' advocates--the 
things that wake us up at 3 a.m.--and those are some of the 
things that I intend to discuss here today.
    Securing sufficient funding for the VA medical care system 
has now taken on such a note of urgency that if we fail in this 
regard, its continuing existence as a viable healthcare 
provider for veterans is very much in doubt. Similarly, 
inadequate funding continues to undermine the effectiveness of 
the Veterans Benefits Administration, and veterans are 
suffering as a consequence.
    The administration's proposed fiscal year 2000 budget for 
the Department of Veterans Affairs would be devastating to our 
Nation's veterans. If the Congress does not step forward and 
increase the funding provided for this purpose, VA's ability to 
provide quality, timely, accessible healthcare for veterans 
will do irreparable harm.
    The VFW hears daily complaints of increasing waiting times 
for veterans to see a specialty provider, such as an orthopedic 
doctor or a dermatologist. This is happening throughout the 
country. More egregious in the specific, however, is the 1-year 
wait for hip replacement surgery in Ann Arbor, and the 1-year 
wait for dentures in Maine, and the 1-year wait for dermatology 
appointments in New Orleans.
    Then there is the veteran in Louisiana who is 50 percent 
service-connected, has a significant skin condition, and cannot 
get a dermatology appointment for 7 months. A 100 percent 
service-connected disabled veteran in a private nursing home 
under VA contract in Rhode Island since Korea for his service-
connected condition, was told that VA could no longer afford 
the cost of keeping him there, and that he could afford to pay 
for his own care, himself. His removal from the home was only 
halted through VFW intervention.
    A New Jersey veteran in a VA nursing home for 15 years was 
threatened with expulsion. This was due to cost-driven mission 
change to eliminate all long-term care. Once again, it was only 
VFW intervention that prevented him from being thrown out.
    These are only a few of the examples of the tragic, 
nationwide epidemic, an epidemic of increased waiting times and 
delays in getting appointments which, in these examples, can 
only be interpreted as a denial of care. And it will get worse, 
this year and next, because of this proposed budget, if the 
Congress doesn't act.
    Mr. Chairman, you are, of course, familiar with the 
numbers, the statistics, but this is a situation--this is a 
human tragedy in the making, a human tragedy that needs to be 
addressed before more veterans suffer, wrongly and for no good 
reason.
    There are other issues to be addressed--the aging veteran 
population. As you know, Mr. Chairman, at this point in time, 
long-term care is not mandated under law and because of cost-
driven mission changes like the one I cited just earlier, long-
term care capability is being steadily eroded, eliminated from 
the Department of Veterans Affairs. This, in the face of a 
rapidly aging population, just at a time when our World War II 
veterans need such care, the VA's already limited capability is 
being diminished. This is wrong.
    Another area of concern--waiting times to receive 
treatments in specialty clinics continues to get worse. Calls 
from veterans have indicated, for instance, more than a 1-year 
delay to receive dentures in Network 1 and more than a 1-year 
delay to receive orthopedic surgery in Network 11. We have also 
seen an increase in the number of calls received about 
obtaining timely appointments in clinics such as cardiology, 
dermatology, podiatry, ophthalmology, and a variety of other 
specialty clinics. Pharmacy waiting times have worsened over 
the past year. Calls about 1- and 2-hours' waiting times to 
receiving medications are commonplace. Waiting times are 
increasing because staff has been reduced, and the outpatient 
workload has increased. With staffing reductions to take place 
in the near future, this problem will surely get worse.
    And then there are other upcoming challenges; you 
referenced it briefly earlier. The VA is about to undertake 
treating veterans suffering from hepatitis C, and they have to 
do this. This is the only correct and right thing to do, but 
the money to pay for it isn't there. This can only result in 
tragedy, if not remedied.
    Emergency room care is another issue. Right now, there are 
veterans who would go for emergency room care--service-
connected veterans--who would seek emergency room care outside 
of VA, and VA won't cover the costs, even if it is for their 
service-connected problem.
    And a newer horizon--you discussed Persian Gulf briefly 
earlier. Persian Gulf is an issue which has yet to be resolved, 
although much progress has been made in the right direction. 
But this augers for future challenges. In this day and age, 
there are going to be more and more small conflicts. And with 
these small conflicts, they will have their own particular 
problems. A tough thing to meet, and the last thing we need is 
a reduction of funding.
    I would also say here, addressing the issue of the caps, 
the VFW, of course, salutes the action in the Senate Budget 
Committee the day before yesterday, in providing an additional 
$1.1 billion in discretionary money for VA. Of course, VA 
hardly has that money at this point in time, and we only urge 
that the House follow suit.
    In fact----
    Mr. Shays. Could I ask, is that--you said $1.1 million?
    Mr. Cullinan. Billion.
    Mr. Shays. Billion; I am sorry--$1.1 billion. But is that 
above the President's budget or above----
    Mr. Cullinan. That is above the----
    Mr. Shays. Or above the baseline----
    Mr. Cullinan. Yes, that is above----
    Mr. Shays [continuing]. That we had last year, or we are in 
this year?
    Mr. Cullinan. It is above the baseline. It is above the 
baseline.
    Mr. Shays. So it is significantly more than----
    Mr. Cullinan. Although----
    Mr. Shays. Yes.
    Mr. Cullinan [continuing]. In spending authority.
    The point I would make here, though, is even more is 
required. The independent budget has identified the need for 
about $3.2 billion. Nonetheless, we salute the fact that they 
took the initiative to go that far, and we ask that the House, 
now, even go further.
    The Veterans Benefit Administration continues to encounter 
serious problems in its ability to render quality, timely 
decisions in the adjudication of veterans' claims for benefits, 
especially those for compensation. Contributing to these 
problems is the escalating amount of appeals--now slightly over 
100,000--to be processed in those offices, primarily in 
response to the number of remands from the Board of Veterans 
Appeals.
    We are absolutely convinced that inadequate staffing is now 
the root cause of the Veterans Benefit Administration quality 
problems. Statistics confirm this supposition. The VBA has gone 
from 13,856 employees in fiscal year 1992 to approximately 
11,200 presently, a 20 percent reduction in less than 6 years.
    What is immediately required is an infusion of additional 
employees to replace normal attrition. And I would add to that 
that they need to be carefully trained employees who have the 
inclination and the intellectual wherewithal to undertake that 
highly rigorous calling.
    The ``Fiscal Year 1999 Veterans' Independent Budget and 
Policy'' document provides justification for an increase of 500 
employees in the compensation and pension service. Congress 
must now immediately act and provide the necessary appropriated 
funding to reverse the deleterious employee reduction in VBA, 
if we hope to have any further success toward achieving the 
goal of timely and proper claims adjudication for veterans.
    Once again, this is not simply a matter of statistics, but 
it is a human tragedy that needs to be addressed.
    Mr. Chairman, and members of the subcommittee, this 
concludes my written statement. Once again, I will thank you 
for having included us in this important forum, and I will, of 
course, be happy to respond to any questions you have.
    [The prepared statement of Mr. Cullinan follows:]

    [GRAPHIC] [TIFF OMITTED] T6397.018
    
    [GRAPHIC] [TIFF OMITTED] T6397.019
    
    [GRAPHIC] [TIFF OMITTED] T6397.020
    
    [GRAPHIC] [TIFF OMITTED] T6397.021
    
    [GRAPHIC] [TIFF OMITTED] T6397.022
    
    [GRAPHIC] [TIFF OMITTED] T6397.023
    
    [GRAPHIC] [TIFF OMITTED] T6397.024
    
    [GRAPHIC] [TIFF OMITTED] T6397.025
    
    Mr. Shays. Thank you very much.
    Mr. Woodbury.
    Mr. Woodbury. Mr. Chairman, AMVETS----
    Mr. Shays. Could you move the mic closer to you, and I 
think push it down a little bit.
    Mr. Woodbury. OK.
    Mr. Shays. And it won't stay down. [Laughter.]
    Mr. Woodbury. Can you hear me all right?
    Mr. Shays. It worked fine.
    Mr. Woodbury. We appreciate the opportunity to join you 
this morning and provide testimony in support of your oversight 
responsibilities concerning National Security, Veterans 
Affairs, and International Relations issues.
    Now, Mr. Chairman, at a time in our history when 
unemployment is approaching record lows, the economy is strong, 
and, for the first time in several decades, the national debate 
seems increasingly focused on what to do with budget surpluses, 
Americans generally may be content with their circumstances. 
One can reasonably argue that, indeed, times are good. They 
are, unless you happen to be in the military or a veteran 
seeking healthcare or other benefits to which you may be 
legally entitled. From their perspective, they sense that 
America's gratitude for their service, patriotism, and 
sacrifice may be a thing of the past.
    We believe that, as a matter of urgent priority, your 
agenda for the 106th Congress ought to embrace the precept that 
without national security, there can be no long-term Social 
Security. National security is underwritten by the men and 
women in uniform today and the veterans who preceded them. Were 
it not for their selfless, dedicated, and professional 
commitment to our Nation through military service, the freedoms 
we enjoy might be significantly diminished. ``What have you 
done for me lately?'' seems to be a question many have 
difficulty answering today. We seem incapable of recognizing 
that today's military personnel, like the millions of veterans 
who preceded them, maintain a 24-hour vigil around the world in 
defense of America's freedoms. Their personal sacrifices today, 
and throughout our history, seem now to go unnoticed and 
unappreciated.
    We are at peace today, thanks to our historically strong 
military posture. Yet, even in the absence of war, we have 
forces positioned around the world ready to respond to national 
tasking. Whenever this Nation calls, they answer. And yet when 
they call out for assistance, seemingly very few hear their 
plea. The message veterans are hearing loud and clear is that 
they are no longer important--the national agenda has other 
more vital issues with which to deal.
    Mr. Chairman, within the very broad continuum of oversight 
responsibilities with which your committee is tasked, it seems 
to us there are several related issues. For example, we do not 
believe it is coincidental at a time when America is enjoying 
unprecedented prosperity, that defense preparedness is down, 
personnel retention within the military is down, and vital 
programs, keyed to helping those veterans whose sacrifices 
helped to get us to this preeminent international position 
continue to receive benign neglect. These trends are troubling. 
The message to both our active-duty military and veterans alike 
is that their service, patriotism, and sacrifices are no longer 
valued to the degree they once were. We believe this message 
has to be reversed.
    The Report of the Congressional Commission on 
Servicemembers and Veterans Transition Assistance is now a 
matter of public record. It discusses a number of key issues 
affecting both active duty military and veterans which we 
believe deserve careful review and action from the 106th 
Congress.
    Separately, AMVETS, in partnership with the Disabled 
American Veterans, Paralyzed Veterans of America, and the 
Veterans of Foreign Wars has introduced its Independent Budget 
for Fiscal Year 2000. It identifies a funding shortfall in the 
Department of Veterans Affairs budget in excess of $3 billion, 
compared to the Clinton/Gore fiscal year 2000 submission.
    As you are aware, the House Committee on Veterans Affairs 
recently recommended a $1.9 billion increase to the 
administration's VA budget, and while we commend Chairman Stump 
for the leadership and support he continues to provide, this 
recommendation still leaves us at least $1 billion short of the 
funds required to sustain VA's programs at an adequate level.
    We believe we cannot continue to ignore our 
responsibilities to provide the support our veterans have 
earned. We need to fully fund VA at the level required to 
fulfill its mandate and, continue to hold its leadership 
accountable for the stewardship of those funds allocated.
    The Clinton budgets have historically ignored this 
commitment. It is time to correct that problem. Failure to do 
so will result in a continuing downward spiral in VA's ability 
to deliver quality healthcare and other benefits which veterans 
have earned and have a right to expect.
    Finally, Mr. Chairman, there is the issue of America's 
national security. We need to pay attention to the lessons of 
history. Every time we have failed to sustain a strong, capable 
military, war has been the result. Americans today should be 
deeply concerned by the news that the military services are 
losing their people, are failing to achieve their recruiting 
goals, and are unable to man ships, aircraft, and other weapon 
systems at acceptable operating standards due to funding 
shortages.
    Considering recent reports that China may now have both the 
technology and means to deploy nuclear weapons, that the more 
subtle threat of international terrorism is increasingly 
possible, and that the threat of chemical and/or biological 
agents is rising, our way of life continues to be very much at 
risk.
    America may be at peace, but considering events around the 
world, it is, at best, an uneasy international environment in 
which we live.
    For these reasons, we strongly support recent initiatives 
to increase DOD funding levels. We need to sustain our 
investment in national defense. The price is not too great for 
the value received.
    Mr. Chairman, this concludes my testimony. I will be happy 
to answer any questions.
    [The prepared statement of Mr. Woodbury follows:]

    [GRAPHIC] [TIFF OMITTED] T6397.026
    
    [GRAPHIC] [TIFF OMITTED] T6397.061
    
    [GRAPHIC] [TIFF OMITTED] T6397.062
    
    [GRAPHIC] [TIFF OMITTED] T6397.063
    
    [GRAPHIC] [TIFF OMITTED] T6397.064
    
    [GRAPHIC] [TIFF OMITTED] T6397.065
    
    Mr. Shays. Thank you.
    I just want to recognize the presence of our ranking 
member, Mr. Blagojevich, and, also, Mr. Sanders.
    And what we will do is, keep on going and hear our 
testimony. So, Mr. Wannemacher, you are up.
    Mr. Wannemacher. Thank you very much, and I want to say 
that we really appreciate the opportunity to appear here before 
you. I am pleased to appear before you and present the views of 
more than 1 million men and women who are disabled veterans 
from all wars.
    On the critical issues facing the Department of Veterans 
Affairs, many challenges confront VA today, and we appreciate 
the opportunity to discuss them with you.
    One of those challenges is the institution of the 
appropriate measures to address the unique problems of our 
Persian Gulf war veterans. Mr. Chairman, you have already 
devoted a great deal of attention to that effort, and we 
especially want to take this opportunity to express our 
appreciation and commend you for your leadership on this issue.
    In many ways, VA is an agency in crisis. While some of the 
problems are complex and difficult to overcome, others are 
susceptible to relatively straightforward, practical solutions, 
but have been neglected for various reasons. Whether simple or 
complex, the problems and their causes, in most instances, are 
well defined, but the remedies are either held hostage by 
politics of the Federal budget or depend on the will of VA 
management to take decisive action.
    Unquestionably, insufficient funding must bear a major 
share of the blame for the current sad state of veterans' 
programs. Regrettably, as obvious as it is that many of VA's 
woes are directly or indirectly consequent to degradation of 
years of inadequate resources, the administration's fiscal year 
2000 budget provides no relief. Indeed, the recommended funding 
for healthcare is so insufficient that it only pushes VA closer 
to the precipice. That reality has become undeniable. While 
they are not unanimous in their assessment of the extent of the 
shortfall, your colleagues on the Veterans Affairs Committee 
recognize the problem.
    With inadequate resources, VA is already rationing 
healthcare and denying or delaying urgently needed services to 
a large number of veterans.
    If Congress does not substantially increase appropriation 
for healthcare, VA medical center directors will be forced to 
do some of the following things--and they will have to do them 
in Vermont, Connecticut, Nebraska, California, and Illinois: 
eliminate entire primary care teams; discontinue healthcare for 
thousands of sick and disabled elderly veterans who are 
currently enrolled and depend on this healthcare as their only 
source of healthcare; to terminate or furlough thousands of VA 
medical care employees across the country; close entire VA 
medical centers; discontinue contract nursing home care; shut 
down hospice care units; and discontinue kidney dialysis for 
service-connected veterans and other eligible veterans.
    We also note that VERA has been given a bad name--
especially in the Northeast--since its inception. But the more 
the inadequacy of the budget, the worse the name is going to 
become, because all that VERA is, is the distribution system of 
the budget.
    For medical care, the administration has requested a budget 
authority of $18.1 billion, which includes $17.306 billion for 
appropriated funds, and then relies on $749 million to be 
collected for the treatment of non-service-connected medical 
conditions.
    The independent budget, which Congressman Filner so 
eloquently referred to, is an annual alternative assessment, 
compiled by the DAV, PVA, AMVETS, and Veterans of Foreign Wars, 
and we have calculated--as you have just heard from my 
colleague--a $3 billion deficit. Regardless of that amount of 
inadequacy, the impact in practical terms is shocking, partly 
attributed to both the immediate effects of the budget and 
partly because of the cumulative effects of past budgets that 
did not provide the resources necessary to maintain the system 
at the current service levels. For well over a decade, VA has 
been faced with the dilemma of ever-increasing demand for 
medical care and perennial inadequate budgets.
    VA has never been able to meet its target for third-party 
reimbursement. In fact, the best year that they did was in 1996 
when they received 35 percent of what they had projected. In 
hearings before the House Veterans Affairs Committee last 
month, Dr. Garthwaite identified that currently this year, they 
are not going to meet their budget requests for third-party 
reimbursement. Now we inflate the projections, and the VA is 
really going to suffer.
    Also suffering is the prosthetics budget, which is frozen 
again this year at $319 million. This is $56 million below what 
the IB had recommended and is incorporated in that $3.2 billion 
budget that the independent budget recommended.
    Mr. Shays. I am going to ask you to speak maybe for 2 more 
minutes?
    Mr. Wannemacher. OK.
    Mr. Shays. Thanks.
    Mr. Wannemacher. The budget also reflects that one of the 
most critical issues facing VA is hepatitis C. The VA estimates 
that there is $135.7 million in new healthcare spending that 
will occur in the year 2000. We applaud the administration for 
taking this step of discovery, however, the budget does not 
provide any new funding. Given the new challenges and the 
potential for hepatitis C epidemic represents, there must be a 
measure of comprehensive process to identify, treat, and 
educate all veterans who may be at risk for this disease. A 
registry of infected veterans would permit VA to track outcomes 
and keep veterans notified of new developments. VA must monitor 
its facilities and ensure that they follow the proper treatment 
modalities.
    This will conclude my remarks, and I thank you very much 
for the opportunity.
    [The prepared statement of Mr. Wannemacher follows:]

    [GRAPHIC] [TIFF OMITTED] T6397.027
    
    [GRAPHIC] [TIFF OMITTED] T6397.028
    
    [GRAPHIC] [TIFF OMITTED] T6397.029
    
    [GRAPHIC] [TIFF OMITTED] T6397.030
    
    [GRAPHIC] [TIFF OMITTED] T6397.031
    
    [GRAPHIC] [TIFF OMITTED] T6397.032
    
    [GRAPHIC] [TIFF OMITTED] T6397.033
    
    [GRAPHIC] [TIFF OMITTED] T6397.034
    
    [GRAPHIC] [TIFF OMITTED] T6397.035
    
    [GRAPHIC] [TIFF OMITTED] T6397.036
    
    [GRAPHIC] [TIFF OMITTED] T6397.037
    
    [GRAPHIC] [TIFF OMITTED] T6397.038
    
    [GRAPHIC] [TIFF OMITTED] T6397.039
    
    [GRAPHIC] [TIFF OMITTED] T6397.040
    
    Mr. Shays. Thank you very much.
    Mr. Weidman.
    Mr. Weidman. Thank you, Mr. Chairman. We appreciate the 
opportunity for Vietnam Veterans of America to share some of 
our concerns with you and your distinguished colleagues here 
this morning.
    I would just second everything my colleagues had to say 
about the budget.
    The budget is so woefully inadequate, one doesn't even know 
how to comment on the irresponsibility of this administration 
submitting such a woefully inadequate budget.
    I am reminded of a story repeated to me by a wonderful 
woman who is a national VA voluntary services coordinator for 
our colleagues at the Jewish war veterans. She told us a story 
that her father had told her often about adequate funding and 
resources for whatever it is you are trying to accomplish.
    There was a man in his village in Lithuania who decided 
that, in order to economize, he would feed his horse a little 
bit less every day. And that way, the horse wouldn't notice. 
When he got down to one straw a day, the horse died.
    It is not too precipitous to say that the VA system is 
literally being starved to death. You can go to any VA medical 
center in the country and see the effects of the budget cuts 
that my colleagues have so eloquently pointed out in some 
detail.
    But I would urge you, not only to go to the VA medical 
centers in your district, but you can go right up to North 
Capitol here and try and explain to veterans at the VA medical 
center here in Washington why it is that we are building an 
atrium which will not add one whit--not add one whit--to the 
quality of care or the range of services in medical care 
available to them. At the same time, VA is cutting back on 
prosthetics in that hospital, with people unable to get what 
they need, and at the same time that the rehabilitation staff 
and physical therapy staff have been reduced by almost 50 
percent. This is a tough one. You can try and explain to them 
it is a different part of the budget, but that is not what the 
veteran sees. So the need for additional resources is clear and 
apparent and pressing at this point.
    Within the context of these budget cuts it becomes, then, 
also, a convenient excuse about why they are not doing other 
things that they should be doing.
    Having said that, Vietnam Veterans of America believes 
strongly that VA needs to make some fundamental changes in how 
it allocates those dollars, and that begins with a ``mind set'' 
of the entire veterans' benefits and services structure. At the 
VA medical system, in particular, it begins at the front door. 
When you tell people who are not familiar with this system, 
that no one asks when you walk through the front door of a VA 
hospital in detail, ``What did you do in the war, Dad? What did 
you do in the war, Mom?'' They are astonished, because they 
believe that the VA system is there to, in fact, to address the 
needs of veterans, as veterans. It simply does not happen.
    A glaring example of that would be hepatitis C. Another 
would be the maladies of DU exposure and perhaps heavy-metal 
poisoning that the Gulf war veterans have suffered through.
    What we are advocating here, and what we have talked with 
Dr. Keyser and Dr. Garthwaite about--and will continue to 
press--is for VA to be VA. The mission doesn't really change. 
The means of accomplishing that mission changes, but the 
mission, from our point of view, is veterans' healthcare and 
not a general hospital system that happens to be for veterans 
and ``let's see what we can do for those poor old guys and poor 
old gals.'' It is a covenant that we made between the people of 
the United States and the men and women who placed their life 
and limb on the line in defense of the Constitution of the 
United States that cannot be--it is that sacred. It is that 
fundamental to our democracy that we honor that.
    But one way of honoring that covenant is to make sure we 
utilize our resources the best, and that begins with the 
military history that documents all of the things that one may 
have been subject to, given the time one served, what era, 
where one served, what branch of service, and what one actually 
did. That can be easily, and with virtually no expense, within 
3 to 6 months, put on all of the computers and done at intake, 
as everybody comes into the VA system, to pick up on their 
neuro-psychiatric problems, to pick up on yellow fever for 
World War II vets, strongliodies and melioidosis among Vietnam 
veterans, et cetera.
    Why is this important, and what does this have to do with 
money? We churn people back and forth through this system 
simply because we do not focus on ``wellness,'' which takes 
into account the entire human being.
    I want to just comment on two other things--or three 
things--that are productive lines of inquiry that I would 
suggest that you and your distinguished colleagues, Mr. 
Chairman, address during the remainder of this year.
    The first has to do with the battlefield as a ``hazardous 
workplace.'' All too often, we have not thought of it that way. 
That would get into agent orange and other adverse health 
impacts for those of us who served in Vietnam--but in every 
battlefield, not just in the Gulf war, but every battlefield in 
the future, given the exotic weapons, will become more and more 
a ``toxicological'' soup. The efforts to understand what we are 
getting into, and the effect on our troops and personnel, as 
well as on the civilian populace, is something that we believe 
DOD has not adequately addressed. And the time to address it is 
before you deploy the weapons, as well as going back and not 
deny, deny, obfuscate, for the men and women who have already 
been exposed.
    So we would urge you to follow through with that because, 
frankly, it doesn't matter whether it is the retinopathies that 
veterans suffer are due to post-traumatic stress disorder or 
whether they are due to exposure to agent orange or one of the 
other chemicals we were exposed to in Vietnam.
    Second is the whole area of zeroing in on the Ranch Hand 
study, in particular. They are differing, widely and 
dramatically, from their own protocol and the way in which they 
are carried out; the pace is being deliberately slowed down, we 
believe, and there are significant issues there where we would 
be pleased to work with your staff.
    And last, but not least, is the issue of studies. I know 
that your jurisdiction may not cover HHS and others at this 
point, but it would be worth zeroing in on ``where are research 
dollars being spent?'' The problem for Vietnam veterans is that 
the alliance and the Ranch Hand study is that it is too small a 
sample size. We need to initiate other studies that can be 
turned around relatively quickly, such as following up on the 
National Vietnam Veterans Readjustment study, et cetera. NIEHS 
needs to put resources in that.
    And last, but not least, in that regard, Mr. Chairman, is 
take a look at how VA uses its research dollars. The research 
dollars are not there in order to just to benefit the medical 
schools, although they may, as a commitment to the primary 
mission of VA. The research dollars should be there in order to 
look into and better treat the needs of veterans, as veterans. 
But very few of those research dollars are being used to deal 
with agent orange, post-traumatic stress disorder, DU, et 
cetera, and other kinds of maladies that are specific and 
particular to veterans, as veterans.
    Mr. Chairman, thank you very much for this time. And I look 
forward to answering any questions you may have, sir.
    [The prepared statement of Mr. Weidman follows:]

    [GRAPHIC] [TIFF OMITTED] T6397.041
    
    [GRAPHIC] [TIFF OMITTED] T6397.042
    
    [GRAPHIC] [TIFF OMITTED] T6397.043
    
    [GRAPHIC] [TIFF OMITTED] T6397.044
    
    [GRAPHIC] [TIFF OMITTED] T6397.045
    
    [GRAPHIC] [TIFF OMITTED] T6397.046
    
    [GRAPHIC] [TIFF OMITTED] T6397.047
    
    [GRAPHIC] [TIFF OMITTED] T6397.048
    
    [GRAPHIC] [TIFF OMITTED] T6397.049
    
    [GRAPHIC] [TIFF OMITTED] T6397.050
    
    [GRAPHIC] [TIFF OMITTED] T6397.051
    
    [GRAPHIC] [TIFF OMITTED] T6397.052
    
    [GRAPHIC] [TIFF OMITTED] T6397.053
    
    Mr. Shays. Thank you very much.
    Mr. Sullivan.
    Mr. Sullivan. Chairman Shays, members of the subcommittee, 
on behalf of the 56 member organizations of the National Gulf 
War Resource Center, I appreciate the opportunity to testify 
today regarding matters important to the Gulf war veteran 
community.
    Mr. Chairman, every day Gulf war veterans are reminded of 
the fact that the Gulf war rages on in Iraq with 1 million 
Iraqis dead, plus the fact that another Gulf war rages in the 
homes of more than 110,000 veterans here in America. More than 
1 million United States troops are serving, or have served, in 
the Gulf war. More than 110,000 of those claim illnesses 
related to the war. An unexpectedly high number of 235,000 Gulf 
war veterans have sought healthcare at the Department of 
Veterans Affairs since 1991.
    There are long-term consequences to war, and the war 
against Iraq is no different--only the many types of new toxic 
exposures are different. Here is what veterans want to know, 
Congressmen.
    ``Why are my family, my friends, and I ill? How, when, and 
where can I get the right medical treatment for my toxic 
contamination? Who will cover the costs, especially if the VA 
healthcare budget is underfunded? Finally, how can we prevent 
such needless tragedies in the future?''
    Due to failures at the Departments of Veterans Affairs and 
the Department of Defense, Gulf war veterans were given the 
burden of being forced to show we were ill and to show we were 
exposed to toxins. Specific evidence--a lot of it revealed by 
this subcommittee--shows Gulf war veterans are seriously ill at 
higher rates than non-deployed veterans.
    More to the point, according to the Department of Veterans 
Affairs data, as of January 1, 1999, Gulf war veterans who 
served in the Gulf region between 1990 and 1991 are 39 percent 
more likely to have a service-connected disability than those 
of the era who did not deploy. The future appears ominous, 
Congressmen. Veterans who served from 1990 to 1991 in the Gulf 
war are 53 percent more likely to have filed a claim. This may 
mean many more VA claims are in the pipeline.
    The military now admits widespread toxic exposures to 
depleted uranium, hundreds of thousands; chemical warfare 
agents, 100,000; oil well fire pollution, hundreds of 
thousands; pesticides, hundreds of thousands; and military-
administered experimental drugs, more than 100,000--plus more 
poisons.
    Mr. Chairman, I will focus on only 4 subjects out of the 15 
points listed in our written testimony, and I ask that it be 
entered into the record.
    The first subject that deserves your full attention is the 
immediate implementation of Public Law 105-277. Mr. Chairman, I 
am going to digress for a minute--and on behalf of the Gulf war 
veterans, Congressman Sanders, Congressman Filner, we thank 
you. That is now the law of the land.
    Implementing the Public Law is our top priority for 1999. 
President Clinton signed the Persian Gulf War Veterans Act of 
1998 into law on October 21, 1998. It orders the VA to sign an 
agreement with the National Academy of Sciences within 60 days 
to investigate the more than 30 toxins associated with the 
illnesses and to study the illnesses more prevalent among Gulf 
war veterans. The VA has failed to enter into that agreement. 
The VA's behavior results in delays in new medical research, 
new treatment programs, new claims filings, timely adjudication 
of claims, and the granting of service-connection to disabled 
veterans. In short, no healthcare.
    Under-explored areas of toxic research include: depleted 
uranium, oil well fires, chemical warfare agents, experimental 
shots and pills, pesticides, and synergistic combinations of 
these. Areas of more prevalent adverse outcomes among veterans 
include Lou Gehrig's disease and other neurological disorders, 
cancers, immunological disorders, reproductive disorders, and 
birth defects among the children of Gulf war veterans.
    On December 8, 1998, the VA asked the Department of Justice 
to review the new law. On March 12, 1999--Congressmen, I have 
great news, the Department of Justice advised the VA that 
Public Law 105-277 is valid and effective. Now the law must be 
implemented.
    We believe the VA must fund outreach about the new law to 
veterans and those assisting veterans with filing claims. The 
Resource Center stands ready to assist the VA with that 
outreach.
    The Resource Center is not alone in our support for the new 
law. The independent budget, endorsed by more than 50 veterans' 
groups, also calls for the immediate and full implementation of 
the new law.
    The second subject, Mr. Chairman, that merits your 
immediate attention is the Resource Center's support for 
funding of private research as well as research by the CDC, VA, 
and DOD. Three weeks ago Congressman Sanders and 16 Gulf war 
veterans groups attended the CDC conference in Atlanta. The 
Resource Center believes that appropriate CDC research should 
be funded--not discussed--that Gulf war veterans and our 
advocates should participate in all research review panels, 
that more conferences should be held, and that Gulf war 
veterans should be included in future conferences.
    Because the Gulf war rages on today in Iraq, with more than 
1 million Iraqi dead, the best Government and private-sector 
research is needed now into the many toxic exposures present in 
the Gulf. This will improve medical care, improve toxic 
detection and protection doctrine and training, plus improve 
the Government's tarnished reputation among Gulf war veterans.
    Our third subject that merits your attention is the VA 
budget. We believe the VA needs $3.2 million more than what was 
proposed by the administration and $1.3 billion more than what 
was approved by the House Veterans Affairs Committee.
    Since the current economic boom has created a Federal 
budget surplus, the VA budget cap should be lifted.
    Gulf war veterans are deeply concerned about underfunding 
at the VA. This is because under Public Law 105-277, more than 
235,000 Gulf war veterans--out of 1.2 million eligible--are 
entering an already overburdened VA healthcare system. Flat-
lining appropriations during the war, while expenses soar and 
the number of patients demanding care increases, is a recipe 
for disaster.
    Our fourth subject is that we hope you hold additional 
hearings on anthrax and depleted uranium.
    We understand you announced hearings for March 24 on the 
experimental anthrax vaccine. Gulf war veterans have a lot of 
questions about that, and we hope that your hearings will 
address that.
    In conclusion, Mr. Chairman, after legislative victory was 
declared with the passage of Public Law 105-277, Gulf war 
veterans thought the VA would get the message and start 
addressing this issue with vigor. With their delays, it is 
clear the VA still doesn't get it.
    The new law and our efforts on behalf of veterans may all 
be in vain unless there are ongoing congressional hearings, 
unless Public Law 105-277 is implemented, unless vigorous, 
unbiased research is funded, unless the VA has full funding for 
healthcare, and unless there is extensive outreach to Gulf war 
veterans.
    Finally, the Resource Center strongly believes that 
research delayed or not funding equals healthcare denied for 
more than 100,000 sick Gulf war veterans. How long must we 
wait, twisting in the wind, sick, and dying? How long? How 
long, Mr. Chairman?
    Thank you.
    [The prepared statement of Mr. Sullivan follows:]

    [GRAPHIC] [TIFF OMITTED] T6397.054
    
    [GRAPHIC] [TIFF OMITTED] T6397.055
    
    [GRAPHIC] [TIFF OMITTED] T6397.056
    
    [GRAPHIC] [TIFF OMITTED] T6397.057
    
    [GRAPHIC] [TIFF OMITTED] T6397.058
    
    [GRAPHIC] [TIFF OMITTED] T6397.059
    
    [GRAPHIC] [TIFF OMITTED] T6397.060
    
    Mr. Shays. Thank you, Mr. Sullivan.
    Let me just get some housekeeping out of the way, first, 
before I go into our questions.
    I ask unanimous consent that all members of the 
subcommittee be permitted to place any opening statement into 
the record, and that the record remain open for 3 days for that 
purpose. And without objection, so ordered.
    I further ask unanimous consent that all witnesses be 
permitted to include their written statement in the record. And 
without objection, so ordered.
    Let me say, at the outset, it is wonderful to have all of 
you here and to have you put on the record what we need to know 
and what we need to focus on. And say that this committee--as 
you know, but stating this for general conversation--we don't 
appropriate and we don't authorize. We look at programs for 
waste, fraud, and abuse. But we have an advantage the other 
committees don't have. One is that we have an interdisciplinary 
look; we have VA and DOD. And, frankly, I asked to chair this 
committee and brought VA with us--because it was under the 
other committee I chaired--so that we would have the advantage 
of looking at, for instance, Mr. Weidman, your point that we 
need to track a veteran, a soldier, sailor, Air Force, Marine 
record from day one. And that when they get in the VA, the 
first question that should be asked is, ``What did you do in 
the service?''--and go from there.
    And so we can rightly apportion, then, work with the 
authorizing committees to have them become law or have them be 
appropriations, and that is, in fact, what we did with the 
whole issue of our look at the Gulf war illnesses. So we are 
interdisciplinary and we can look at.
    And the other thing is that we are going to sometimes 
offend the service organizations, because we don't know your 
organization as closely as say the veterans do or the DOD does, 
but, in that, we are going to break out of the box. For 
instance, I might ask a question of, ``Why don't we just give a 
veteran a card?'' And I know some of you don't like that, but I 
am going to want that dialog. And that they can go to any 
hospital in the world and get the best healthcare. Now I know 
there are answers to that. I know that the hospitals focus in 
on the special needs of veterans, and I know that you want to 
know there is a place, and I know those other questions, but I 
am going to want that kind of dialog as well.
    Mr. Blagojevich is going to start the questions off. We are 
going to, obviously, just keep moving because we don't want to 
have a break and then have to have you come back.
    Mr. Blagojevich. Thank you, Mr. Chairman.
    I have a question for the whole panel, and it is a very 
broad question. I think it is probably a good way to start out.
    And what I have noticed as a common theme, irrespective of 
what war the veteran fought in is that there seems to be two 
factors that you guys are lamenting: insufficiency of funding 
and lack of access to healthcare, which are, I think from a 
moral perspective, very troubling.
    If you can just briefly, anybody in the panel, or as many 
of you that would like, tell us about how we got in this 
position and why that happened.
    Shall I just isolate somebody or do one of you want to 
volunteer?
    Mr. Wannemacher. Well, I would just say that, as you 
recognized, it doesn't matter which war you are in, we all 
became disabled or have--because of our economics--become 
eligible for VA healthcare. Whether it be VA pensions or VA 
compensation, all of us are eligible for VA education benefits. 
And we all fought different wars for the same purposes, and 
that was to keep America free. None of us went to war as a 
Republican or a Democrat. We all went to serve that American 
flag that sits behind you. And the inadequacy is in my written 
statement and in my oral statement, also.
    The consistent inadequacy of the budget has caused the 
Veterans Administration to be trying to stay ahead. And now 
they are at a point where they have reached a wall. The 
efficiencies have been taken away within the VA. There are 
still some efficiencies that might be able to be found, but as 
veterans' age, consistently age, they need healthcare, and the 
budget just hasn't kept up with that.
    Mr. Robertson. The American Legion agrees with that. The 
escalating cost of healthcare in the private sector has just 
driven the price through the ceiling. And year after year, 
after year, after year, after year, the veterans' organizations 
kept saying, ``You are falling behind; you are falling behind. 
You are a dinosaur system, and the rest of the world is out 
here in this type of managed care healthcare.''
    The problem is, is at one time, the VA healthcare system 
was probably ``the example'' of medical care in the country. We 
are affiliated with 107 medical schools. This is a teaching 
institution for the future generations of healthcare providers. 
And we are watching this system implode on itself.
    And everybody is saying, ``Well, you know, we will just 
throw a little bucks this way and a little bucks that way, and 
it will pacify them for another year.'' We have gotten to the 
point where veterans are being said, ``You have got to leave a 
long-term care facility, and we will drop you off at the 
homeless shelter.''
    We are at a point when veterans come back from a war like 
the Persian Gulf and say, ``We are sick; we need help. We need 
medical attention.'' And you are telling us, ``Prove to us you 
are sick.''
    My God, let's talk logic here. That is not difficult to 
understand. If you send me halfway around the world, and I come 
back and say, ``I am sick,'' you have an obligation to take 
care of me. I did your job; now you do yours.
    Mr. Woodbury. There is a more fundamental reason, I think, 
sir. VA and DOD are easy marks in the appropriation process. If 
you are trying to make a ``bogey'' in some other program that 
may be more political expedient, you can get the money from 
DOD; you can get the money from VA, and you don't have the 
advocacy in that appropriation forum that you have here. And I 
think that is one reason we got ourselves in this position in 
the first place.
    Mr. Weidman. It is the public conception that VA does 
everything for all veterans that people have that make it an 
issue that becomes difficult to address. So if you feed that 
horse a little bit less and a little bit less each year, and 
the VA hospital is still down the road, and you haven't gotten 
the message out that veterans quite literally are dying albeit 
because they are denied needed care under, ``cost savings,'' VA 
denies that is happening. And it is true, people aren't turned 
away, but, you know, ``they use euphemism'' about 
reorganization.
    One of my favorites is they reorganized the Alcohol and 
Drug Treatment Program in Albany, Stratton VA Medical Center. 
What ``reorganization'' was, they closed the program there and 
have a van every 2 weeks to take somebody 200-miles-plus to 
Batavia. And folks who were ready to dry out and get clean 
weren't going to wait 2 weeks. Therefore, they discontinued the 
van because nobody used it. It is that kind of euphemism of not 
denial of care.
    And make no mistake about it; the savings mean services 
denied to veterans, and I think that is how, little by little, 
we slipped into the point where the horse is just about to die.
    Mr. Cullinan. I would just add to that. I agree with my 
colleague's apocryhal tale of the horse and the straw. And it 
doesn't just pertain to funding. It pertains to the 
efficiencies and the reductions and the realignments that have 
been going on in the VA for over 10 years now, perhaps 20 
years.
    It is an ongoing--it has happened gradually, slowly. We 
have protested; we protested, but seldom were we heeded.
    Mr. Sullivan. Congressman, I would quickly answer that by 
saying the public and many Members of Congress--I have met with 
them--are under some bizarre false impression that the Gulf war 
ended. There is a war going on, and when a war like World War 
II or Vietnam ends, that doesn't mean that since the soldiers 
are home, they are suddenly healthy and everything is done. 
There is a public impression that the day the war is declared 
over that there is closure. That is not true with war.
    And the main thing I would like to impress upon the Members 
here is that the Gulf war is continuing; we are bombing them 
every day, and it is the most insane, moral outrage to consider 
cutting veterans' benefits and healthcare while our troops are 
dropping bombs and getting shot at and breathing in DU and 
receiving experimental anthrax shots. It is insane.
    Mr. Blagojevich. Thank you very much.
    Mr. Shays. Mr. Terry.
    Mr. Terry. Thank you, Mr. Chairman.
    I have a short statement that will lead into a question 
that, really, you hinted or stated in your statement, Mr. 
Chairman, and that is, ``What is the future role of the VA 
hospitals?''
    Let me just say that I am not a veteran, but I am here 
because I am very interested in the issues. I truly believe 
that, even though there was no law passed, but this Government 
made promises of healthcare. We need to uphold that promise 
that was in the recruiting propaganda that you were given, the 
promises that you were given when you made that oath. One of 
the tasks I have assigned myself is to try and uphold that.
    Again, that may require that we think out of the box on 
occasion. How do we do that? If the No. 1 goal is to ensure 
half the healthcare, my first question is going to be exactly 
what the chairman raised. Does that necessarily mean a separate 
healthcare physical system? Do we need the brick and the mortar 
of the VA hospital? And let me tell you, I have taken your 
advice. I visited our VA hospital; we have a great one in 
Omaha, NE. A guy I have coffee with almost every morning that 
has heart problems that is connected to--that is a service-
connected disability--moved back to Omaha from Texas because he 
thought our facility was one of the best in the area or in the 
Nation.
    But I also hear, in visiting our VA facility, that they are 
becoming more like a regular hospital with their administrative 
duties, and having to fill out codes. What I am saying is, in 
many ways, they are operating like the University of Nebraska 
Hospital that is only 10 blocks away. So my first question is, 
why do we need a separate system if our goal is to ensure 
healthcare?
    Mr. Cullinan. Mr. Terry, I would just say, first of all, 
some of our best friends through the years have been non-
veterans in the Congress, so you should know that.
    Mr. Terry. Good, and I appreciate that.
    Mr. Cullinan. And I will briefly address--really, what you 
have introduced here is a complete separate hearing or 
hearings.
    Mr. Terry. Yes.
    Mr. Cullinan. What I would say, though, off the cuff, is 
that, first of all, VA has a very special mission and a very 
special expertise--caring for combat, disabled veterans. You 
know, through the years, they have been in the forefront in 
everything from trauma injury to prosthetics to certain 
pharmacological concerns for veterans serving from, you know, 
tropical maladies. So there is that issue.
    Then there is another point. If it weren't for the 
Department of Veterans Affairs, do we really believe that would 
somehow keep the cost down to the system? Do we really believe 
that private providers would somehow fill the gap for VA? We 
don't think so, both from the perspective of cost and from the 
perspective of those specialty areas.
    You know, let's face it, if it weren't for the Department 
of Veterans Affairs, I mean we would still have 100-pound 
wheelchairs and probably wooden prosthetics. The reason for 
that is, is that years ago, there was no money in it so the 
private sector didn't pursue it. And that is true of a host of 
other areas as well, so it is important.
    Does VA have to change the way it does business? Yes, of 
course it does, and it is starting to do that. There is some 
pain and some trauma, in a metaphorical sense. But we also--
along with the complaints that we hear, we hear from veterans 
who like the fact that there is now an outpatient clinic, 
reasonably within access to their home.
    Mr. Robertson. Mr. Chairman, Mr. Congressman, in answer to 
your question, if Desert Storm had produced the ``mother of all 
ground actions'' and our guys had been exposed to chemical and 
biological agents that required long-term care, name me the 
private hospital that would like 100,000 troops showing up at 
their doors with diseases that maybe they don't know how to 
take care of. You are talking about a system that is the backup 
to the Department of Defense, that when it is time for the 
balloon to go up and the DOD people deploy overseas and fight 
on the battlegrounds and serve at field hospitals, there is not 
a whole lot of private physicians that are going to want to 
walk away from their practice and their 3 o'clock tea times to 
go fight in the Persian Gulf.
    So I think that there is a real mission that you need to 
look at that is very valuable that the VA provides, and that is 
the backup to the Department of Defense.
    In answer to your question, Mr. Shays, about the credit 
card--you have a system like that, and it is called 
``Medicare,'' and it is not working very well either.
    Mr. Weidman. I would just add, Mr. Terry, to that entire 
issue, that if VA truly addresses the needs of veterans' 
healthcare in a full and holistic way, then we need VA.
    You may know already, sir, that over $1.2 billion is 
already contracted out in medical services by VHA. I suspect 
that number is going to go up dramatically in the future.
    The real question at the heart of what you are talking 
about is changing the power of relationships between the VA 
versus the veteran who walks through the front door. That is 
our interest. And if it took something like that in order to 
change that ``power relationship'' between the individual 
veteran who seeks care, then maybe that is the way to, at 
least, look to proceed. But the real question here--is VA 
hospital system, Veterans Health Administration, currently 
addressing the needs of veterans, as veterans?
    What I am talking about that, incidentally, is that all too 
often when a veteran walks into a VA hospital in Omaha or 
anyplace else in this country, they are regarded as a 
supplicant, as a supplicant, and not as a veteran who is 
deserving of dignity and respect--or at least are made to feel 
that way by certain staff.
    It is always remarkable to me how many people get good 
treatment at the VA healthcare system, given how messed up the 
system is and anatomizing in many ways. Contrary to people 
preserving their dignity in the very way in which it is set up. 
And if you can change that ``power relationship'' and have 
quality assurance within the VA to focus on the needs of 
veterans, as veterans, then, by all means, you absolutely need 
a separate VA healthcare system.
    Mr. Wannemacher. Just a short--the DAV did an analysis 
comparing Medicare and VA. We took the $17 billion that VA has 
and the appropriation from Medicare and we showed--our 
executive director, Dave Gorman, did a commentary. ``In Modern 
Healthcare,'' February 12, Mr. Gorman said there is a real good 
reason why the Federal Government just can't even afford to 
provide the same healthcare that the VA does.
    One thing that wasn't mentioned--it was mentioned about 
being an educator in that, but the research that VA provides, 
also, is for the American economy. There would be, you know, we 
have already discovered the pacemaker, the CAT scan, the 
virtual elimination of tuberculosis--things that wouldn't have 
happened without the Veterans Administration, just like there 
would be a lot of advances that wouldn't have happened without 
the space program. And to say that the Veterans Administration 
should just go away like a bad penny is completely unwarranted.
    And I agree with what was said, too--many of our strongest 
advocates aren't veterans. You hear the rhetoric that, ``Well, 
the Congress isn't doing the right thing because there is a 
decreasing veteran population.'' I don't believe that; we don't 
believe that.
    Mr. Sullivan. Congressman, if I may answer your question. I 
am considered a very, very harsh critic of the VA. The Resource 
Center has been very, very vigorous in attacking the VA for not 
doing what they are supposed to do to help out Gulf war 
veterans.
    That said, there are some people at the VA who really care 
and who really work hard. And we have gone more to being 
harshly critical to keeping them honest in their work. And 
toward that end, the VA is actually looking into radioactive 
depleted uranium toxic waste contamination among Gulf war 
veterans. A lot of that came about as the work of the publicity 
of this committee. That is something that only the VA can do. 
Who else is going to breath in lung-fulls of radioactive toxic 
waste on a battlefield in a foreign country?
    The second is the vet centers--that is a beautiful VA 
program that is a legacy of Vietnam veterans that opened up the 
door for readjustment counseling for combat veterans of the 
Gulf war when they came back. With that program, we may see 
reductions, the saving of lives, because people had someplace 
to go to talk about their war experiences.
    That is something that only the VA is going to do, and it 
is a moral and legal contract. So we may criticize the VA, up 
and down until tomorrow, but it is something that we need, and 
it has to be there because we are still fighting a war right 
now.
    Mr. Shays. Let me tell you how I am going to suggest we 
continue. Obviously, each member is really not going to be able 
to ask a lot of questions. We really have six excellent 
witnesses. The purpose of this first hearing is to kind of just 
introduce the issues, just to expose us. Be assured, we are not 
going to recommend or do anything without extensive research 
and involvement with your organizations, as it relates to the 
VA.
    We are really trying to determine what our agenda should 
be. Should we focus in on what the hospitals do? Should there 
be a different system, a combined system? I mean, obviously, we 
all agree on the funding issue. So I just want to make that 
point.
    The other point I am going to make is that I am going to 
leave at 10 o'clock, but I am going to give the gavel to any 
Member who is going to stay--be it a Republican or Democrat, 
and we can close the hearing with a Democrat, for instance.
    Bernie, you may want to go on for awhile, and I will just 
give you the gavel, but, also, acknowledge that Mr. Filner is 
here, and since he is not an official member of this committee, 
he is just having to wait until the end if he does want to ask 
questions. But his involvement in this issue is paramount, and 
we will be inviting him to participate in any future hearings 
we have.
    Also, may I just acknowledge the presence of Mr. Mica, who 
chairs the committee I used to chair, which has HHS. And so he 
gets involved in this issue, and we will be sharing some work 
with him as well--and Mr. Souder, who serves, I think, on both 
committees as well.
    Mr. Sanders.
    Mr. Sanders. Thank you very much, Mr. Chairman.
    And we welcome Mr. Filner and congratulate him for his 
outstanding work that he has done for veterans.
    And, Mr. Chairman, let me congratulate you for the work 
that you have done over the last several years in Gulf war 
illness.
    Steve, thank you very much for coming to Vermont to be part 
of the Gulf war illness conference that we have. And, Rick, 
thank you very much for your advice on agent orange, and that 
is something that I hope very much, Mr. Chairman--I think there 
is a scandal out there, and I think we should get to it. And, 
Paul, thank you so much for all the great work you have done on 
Gulf war illness. And, Dennis, and, David, and, Robert, I look 
forward to working with you.
    I am the only Independent in the U.S. Congress, so I 
sometimes look at things a little bit different than my 
colleagues, and sometimes a little bit franker than my 
colleagues. Sometimes I say things that I regret having said 
after I say them, but that is----
    Mr. Shays. That just relates to your personality, not--
[laughter.]
    Mr. Sanders. That is my personality--[laughter]--I know, 
but I can't help it.
    So, let me be as straightforward as I can.
    I consider myself, along with some of the folks up here, to 
be a very strong defender of veterans, and do you know why? I 
happen to be an anti-war Congressman; I vote against the wars. 
But I happen to think that when a man or woman takes the oath 
and goes out and puts their life on the line and does 
everything that is being asked of them, then this Government 
has the moral responsibility of fulfilling its end of the 
bargain. And if it doesn't do that, if that contract between 
the Government and the men and women who put their lives on the 
line is broken, then, this country does not stand for very much 
at all. So, while we can argue about the wisdom of this or that 
war, after the decision is made, it is the moral obligation of 
this Government to stand with the people who are making the 
ultimate sacrifice.
    Now I happen to believe that the way the U.S. Congress, and 
various administrations, have treated veterans is an absolute 
disgrace. At this moment now, I am spending far more time than 
I ever wanted to making sure that the VA hospital in White 
River Junction, VT, has the services that it needs, that it 
treats our people with the minimum standards that are required. 
But I know that problem exists all over the country, and it is 
an outrage.
    Now I think it was Dennis who may have made the point--I 
don't know that--who talked about this problem going on for 10 
or 20 years under the Reagan administration, under the Bush 
administration, under the Clinton administration, OK?
    Now what I have a hard time understanding is that with 
millions of millions of folks in your organizations, with an 
understanding we are all politicians, and when I go home in my 
State and I say, ``Do you think we should treat veterans with 
respect and provide the care they need?'' Everybody says that 
we should. So I don't understand how for 20 years, under 
Republican administrations and under Democratic 
administrations, veterans have not gotten their fair share.
    I don't know if you have not been doing your job. I don't 
know if we have not been doing our job, but somebody has 
screwed up royally. Because I am tired of getting calls from 
veterans in the State of Vermont who tell me that they are not 
getting the care that they need. And Mr. Filner is getting 
those calls; and every Member here is getting those calls.
    Now I want to get back--and here is where I am going to get 
into some trouble. I came in a little bit later and I think, 
David, you were talking. And you were telling me how we need 
that old anti-ballistic missile system to protect us from North 
Korea. Right?
    Or whatever--I may have not gotten the whole point.
    Well, I find it amazing that when we need a few billion 
dollars--and I am not sure that your proposal--your independent 
budget may be too conservative--I would suggest that you need 
more than that. But be that as it may, I find it rather amazing 
that President Clinton is proposing $110 billion more for the 
military over the next 5 years. The Republicans thinks that is 
much too little; they want to put $150 billion into the 
military over the next 5 years. And you are sitting here 
telling us that you need a few billion dollars for the 
veterans.
    So when I go down on the floor today in opposition to the 
ballistic missile system, you know what I am going to say? I am 
going to say, ``Scratch that system and use that money for 
veterans' medical care.''
    And I want to know where your voice was 2 years ago on the 
Balanced Budget Amendment, when we gave tax breaks to 
billionaires. We have $115 billion in tax breaks, most of which 
went to the very wealthy--but apparently we don't have enough 
money for the veterans. We didn't have a few billion dollars to 
make sure that our hospitals were open.
    Now I am glad you are here telling us how important it is 
to have a ballistic missile system. But when I hear the guys 
who make billions off the ballistic missile systems, I don't 
hear them telling us that it is important that we have an 
adequate veterans' care.
    So let me, respectfully, make this suggestion about how we 
can all work better together. I am going to do everything I can 
to go beyond this budget. I don't think that is enough. I don't 
want to get any more calls from veterans in the State of 
Vermont that they are not getting the care. I want more 
outreach, because I think the VA hospital is not outreaching 
enough, bringing in enough veterans.
    I would respectfully make a suggestion that the veterans' 
organizations fight like hell to protect the veterans, in terms 
of the healthcare needs, that we start an investigation about 
agent orange, that we are going to make some progress, finally, 
in dealing with Gulf war illness, that we want to understand 
the scandal of radiation illness and why the VA and the DOD did 
not react appropriately to that, and that we want this 
Government to keep its contract to the veterans.
    As citizens of this country, you have every right in the 
world to give your opinions on defense spending, and so forth 
and so on. But I would hope very much that your focus would be 
on the needs of veterans and work with us on those issues, 
because I don't hear the guys from the DOD and the big 
contracts because Lockheed-Martin doesn't come in here and say, 
``Worry about the veterans.'' Lockheed-Martin has enough 
lobbyists in here to take good care of themselves.
    So now I have gotten you all angry. Steve, am I crazy?
    Mr. Robertson. No, sir, you are not. And just for the 
record, I want to tell you that the biggest opponents of war 
are sitting at this table. We've been there, done that, got the 
t-shirt, and we adamantly don't like war. But that, also, is 
part of our philosophy in the American Legion, is to maintain a 
strong national defense, to prevent us from doing this again.
    My son just went into the Army Reserves, and I don't want 
to see him going overseas into combat, any more than you do. 
But I think that there is a balance that we have to strike. And 
the American Legion and my colleagues here from the other 
organizations have been fighting. But you have got to remember, 
Congressman, we represent less than 1 percent of the U.S. 
population. And you are right; there is a lot of people that 
aren't in there fighting and battling with us on our side on 
these issues, because we don't impact their lives day in and 
day out. They forget the freedoms that they enjoy were 
purchased with the blood of our comrades and many of ourselves. 
And, you know, it is kind of, you know, ``when you need me, I 
am here; otherwise, get out of my way and don't bother me.'' 
That is why, we, as veterans' organizations and military 
service organizations are supposed to be the conscience of this 
country to remind you when the scale is being tipped in the 
wrong direction. And we are screaming. And I will tell you--I 
will be very honest with you, Congressman. When military war 
decorated combat service-connected veterans start showing up in 
homeless shelters instead of long-term care facilities, when 
hospitals are closing around the country and veterans are going 
home to die, you will start hearing more people become 
involved, because it will be family members who are saying, 
``How can our country reach this level of disrespect for those 
who have won the freedoms and are willing to die tomorrow to 
protect you again?'' And if they call me tomorrow, I will pack 
my bag, and I will be on the next plane if that is what it is 
going to take to keep these freedoms.
    Mr. Sanders. Steve, my question is, what goes on when 
people are proposing tens of billions of dollars in tax breaks, 
right now, and you are here asking for a few billion dollars 
for veterans? And every person up here understands they are 
needed. What is going on?
    Mr. Robertson. The American Legion doesn't--[laughter]--
endorse tax breaks.
    Mr. Sanders. I am not even asking----
    Mr. Robertson. It is not part of our legislative portfolio.
    Mr. Sanders. No. No, I am not suggesting that you do. But, 
why--why, in your judgment, does that go on, Rick?
    Mr. Weidman. I think it really comes back to that whole 
analogy of slowly starving the horse. Somehow people don't get 
it--as long as we don't close the hospital in my district. The 
administration's budget was the equivalent of closing 26 
hospitals. Some of us suggested to the Veterans Affairs 
Committee that they take the unprecedented step of bringing it 
immediately to the floor and rejecting it, or unanimously, 
sending it back to the President, and said, ``For God's sake, 
send us a serious budget that is going to address the 
healthcare needs of veterans.'' And they did not do it.
    If you take the next step--some of us suggested, privately, 
but not publicly, that you take the step of--if you close some 
hospitals first, instead of reducing all hospitals by little 
bits, starving each one of the facilities. And you closed all 
the hospitals in the budget committee members' district, by 
God, you would have another $10 billion for the system. You 
would, wouldn't you? But because it is by attrition. I think 
that is one element.
    The second thing is that popular conception that I talked 
about before that veterans have too much, that is still driven 
by a lot of people in our society. If you think about it for a 
minute, if any other discrete group of Americans had their 
healthcare costs frozen for 5 years in a row--suppose that the 
Congress had decided to do that for African-Americans, all 
African-Americans, suppose the Congress had tried to do that 
for all women, suppose the Congress had tried to do that for 
everybody of Lithuanian descent, then all hell would have 
broken loose. But somehow, somehow, because it is veterans, 
people think they can get away with it.
    Mr. Mica, I am glad to see is here, because he played an 
extraordinary role in trying to put some teeth back into the 
veterans preferences. The same sorts of remarks that the 
Federal unions made about veterans, they would not dare make 
about any other discreet group of Americans. And Mr. Mica knows 
all too well what I am talking about here. Well, they would 
say, ``We want a quality work force, therefore, we don't want 
veterans' preference.'' Excuse me? The same people you trusted 
with the weapons that could destroy the world, that were worth 
billions of dollars 2 years ago, now aren't worthy of being a 
GS-9? And shuffling papers? Excuse me?
    I mean it is just extraordinary. People deny that there is 
``veticism'' within their society that is every bit alive and 
well as sexism and racism within this society, but it is there.
    Veterans are for Veterans' Day and for Memorial Day, and in 
between time, those guys with funny hats can take care of 
themselves because they already have too much. We have to 
change that perception.
    Beginning this May, it will be a relatively small effort, 
but a lot of veterans are going to be focusing, the night of 
the 27th or 28th, at a march on Washington, with a view toward 
2000, of really feeling them all up, 1931. And if it takes 
going back to the damn streets to do it, then that is what we 
ought to do in order to crack through this myth. We have been 
marginalized, at the same time everybody is paying a pieoa a 
couple of times a year. And sometimes folks say, ``The only 
good vet is a dead vet.'' That is why they honor us on 
Veterans' Day and Memorial Day, for christ sake. What happens 
in between? And I don't think it is an issue of whether--the 
percentage within this society. I really don't believe it is 
that. One of the finest veterans' advocates I have ever met is 
on your staff, Jim Rader. There is a lot of people walking 
around in Vermont because of Jim's work at the vet center in 
the early 1980's. However, within the context of the society at 
large, there is a Gulf, particularly in the generation in power 
right now, between those of us who went--irrespectively of what 
we thought about the policy--and those of us who did not go. 
And I don't think you have to have served in order to be a 
veterans' advocate, and you and Mr. Filner certainly are 
representative of that. But it is true that, within the 
Congress, when it comes to the nut of where the dough goes, 
suddenly folks aren't there; $1.1 billion the Senate Budget 
Committee finally provided on top of the President's budget. 
And if you take the Medicare inflation rate for the last decade 
and apply the same rate of Medicare and the Federal funding of 
Medicaid, whichever--but a lot of people believe is 
inadequate--the VA budget now would be over $22 billion a year 
for VHA.
    Mr. Shays. Let me just recognize Mr. Mica--but also say, I 
know some of you had an obligation. If you do, feel free to go. 
I know one reason we started it was because of the briefing on 
the floor, but also because some of you had an obligation or 
two.
    I am going to ask Mr. Mica to have the floor. And then, 
Bernie, you know, give you back the gavel if you want to be 
here and if you want to pursue the questioning.
    So, Mr. Mica, you have the floor.
    And I am going to just apologize for leaving, but I have a 
budget meeting that I have to go to, and then I want to try to 
get on the floor to some of that hearing. I have not voted 
against performance of the Defense, and I am leaning close to 
doing that, thinking that we really need to do that.
    So, I will give Mr. Mica the floor.
    Mr. Mica [presiding]. I thank you, Mr. Shays, Mr. Chairman, 
for holding this meeting, and I am really pleased to see that 
we have organized this subcommittee in this fashion. I had 
recommended that to the Speaker and to Mr. Burton and others 
that we have National Security, Veterans Affairs, and 
International Relations because I think that we do need to 
conduct investigations. We do need to conduct oversight, and 
this is a very good beginning.
    So I thank you, Mr. Chairman. I thank you for your 
testimony, and I also want to thank you for helping me to get a 
few things passed, although, as you all know, it has been very 
difficult, both on veterans' preference and expanding 
healthcare access for our veterans, our military, and 
dependents.
    The availability of healthcare really disturbs me. Even 
this past weekend, I was the recipient of calls at home for, in 
fact, a veteran who was a survivor of the Bataan death march 
who was not receiving adequate care, who I personally know and 
admire. Those things really disturb me, when someone who--this 
man has literally been through hell and back, and is one of the 
few survivors we have, and to have to grovel for healthcare at 
his age is just shameful for all of us. But, trying to do 
something about this--this is not the only case. I hear it all 
the time from people--the delays, the access to specialty care, 
the waiting lists. Some of them die before they ever get 
treatment or even to proper diagnosis, which disturbs me even 
more. So I think what we need to do is look at how we can 
develop that.
    One of the things that we did try to do was open the 
Federal Employees' Health Benefits Program, which will have a 
small demonstration project. Are there other areas that you 
think we can--and we need some immediate attention. We can't--
[laughter]--the tendency of Congress is to have a study, a demo 
project--[laughter]--and most of the people die before we get 
to where we want to be. But are there any specific ideas that 
you have that we could address in the very short-term, in this 
session now past, that would bring healthcare immediately to 
these people who are on waiting lists, who need special kinds 
of treatments, both for that type of treatment. Then the other 
area I have a grave concern for is long-term care, because of 
the aging demographics of particularly our World War II and our 
Korean war--some of those veterans. Long-term care is a 
disaster right now in trying to place folks. And sometimes when 
we find the placement, it separates the veteran from the family 
in a very awkward fashion.
    So those are two areas, and maybe you could comment with 
some suggestions.
    Mr. Cullinan. Mr. Mica, for one thing, we are urging that 
the Federal employee benefit package, the pilot you just 
referenced, that should be implemented fully and now. We don't 
see any reason to wait. Can that be accomplished quickly in 
this Congress? Probably not.
    We are looking for additional funding streams outside of 
the conventional appropriations process--Medicare subvention, 
allowing VA to collect and retain Medicare dollars for the care 
it provides for Medicare-eligible veterans for their non-
service-connected disabilities. Can that be accomplished in 
this Congress? I don't know; I would hope so, but when I say, 
``I don't know,'' I am really saying, ``I think not.''
    There are any number of areas. Right now VA has opened--
right now, it has pledged to enroll all seven categories of 
veterans who come to it seeking healthcare. Does VA have the 
money to sustain that? If this administration's budget goes 
forward, without amendment or improvement, no, it doesn't. 
There is something right now. But to sustain that effort, to 
sustain VA and its ability to care for all veterans who want to 
enroll into the system, that is something that we can do right 
now that will be of a measurable benefit to veterans.
    Mr. Mica. Thank you.
    Mr. Robertson. Yes, sir. Under the Medicare subvention, 
Medicare plus choice, why a veteran can't say, ``I am Medicare-
eligible; I am not service-connected; I am not currently 
entitled to VA healthcare at no cost?'' Why they cannot choose 
the VA healthcare system, as their healthcare provider, is 
beyond me. And could that be done in one Congress? I think 
absolutely. I think that the House Republican leadership in--
what was it--in 1992, when they came, had their contract with 
America, and showed how much you could do in 100 days.
    Well, I think if you set your mind to it in a bipartisan 
manner, that anything can be accomplished in this chamber. And 
I would strongly encourage that be a quick-fix. That is 
something that I think would last for--be part of a solution to 
your Medicare problems. If you have a managed care system that 
you can put these people into, and it would bring money into 
the VA healthcare system to offset those costs.
    The other thing that is kind of a problem is the MCCF, the 
Medical Care Collection Fund, offsets third-party 
reimbursements against discretionary funding. Discretionary 
funding was designed to take care of service-connected 
veterans. But what happens under the budget accounting is that 
they reduce the third-party reimbursements rather than add that 
as a supplement, so that VA benefits as they collect more money 
for treating non-service-connected veterans.
    What you are doing now is you are using discretionary 
dollars which are supposed to be healthcare dollars to pay for 
non-service-connected conditions, and that is wrong. That is 
fundamentally wrong.
    Those are two things that I would recommend.
    Mr. Mica. Sir.
    Mr. Wannemacher. The Medicare subvention bill that was on 
the floor last year that Representatives Thomas and Stump had, 
the DAV's--only objection was that VA didn't have an accounting 
system that was going to be able to guarantee that only 
service-connected disabilities were going to be charged. The 
DAV has long endorsed--and the independent budget has long 
endorsed--Medicare subvention, and we call for it again this 
year. And as Steve mentioned, in 100 days, you could get a lot 
of things completed.
    For a short term, you could probably do some things that 
would help the Montgomery GI bill proposal that was made by the 
Transition Commission. There are some good recommendations in 
there, and we support that. We have seen some language that 
there is about $881 million that would have to be appropriated 
to provide an education tool for the Montgomery GI bill. There 
is also some homeless projects. We have seen some language on 
some homeless projects that could assist. It is only about $5 
million needed to enhance Homeless Veterans Reintegration 
Program.
    Those are a couple, and I would be glad to submit some 
others for you.
    Mr. Mica. I would appreciate, actually, all of you 
following up. I will try to get one of my staff assigned to 
that. I no longer chair Civil Service, but we can get one of 
our subcommittee staffers to work with you.
    Did you have anything you wanted to add, then? Then, I am 
going to turn to Mr. Souder.
    Mr. Weidman. I think it could be done in one Congress, Mr. 
Mica.
    But the real problem is, is breaking out of the mind set as 
``business as usual,'' and people say, well--in fact the 
majority counsel for the House of Veterans Affairs Committee 
said that to me about Vietnam Veterans of America legislative 
agenda. ``This would be great if you were starting over.'' And 
I said, ``Maybe we need to. Have you taken a look at what is 
going on?'' Those aren't hypothetical stories about VA 
hospitals, for instance, in the State of New York, discharging 
homeless veterans after 4 o'clock because they know that the 
State-funded shelters have to take them. I mean those are real 
stories happening in Mr. Lazio's district right now. And we do 
need the drive, and if certainly this committee can help raise 
that conscientious among your colleagues--and I might add, as 
importantly, among the public at large, because even in 
Florida--in your district, Mr. Mica--people think that veterans 
are well-taken care of. They do not understand that veterans 
are not being well-taken care of, that people are literally 
being denied services that are vital, that keep them alive.
    Mr. Mica. Thank you.
    Mr. Sullivan. Congressman, specifically related to Gulf war 
veterans, because the Gulf war is a toxic soup with things that 
folks never dreamed that would be on the battlefield, like 
radioactive toxic waste and mixes of pesticides and 
experimental pills to protect people against chemical warfare 
agents, plus chemical warfare agents--the main thing Gulf war 
veterans are looking for in healthcare is, the VA and DOD have 
acknowledged widespread contamination to radioactive toxic 
waste. At first they said it was nobody; then it was 30; then 
it was 100; then it was 800. Now it is hundreds of thousands, 
Congressman. When will the VA launch a comprehensive program 
into depleted uranium contamination? The stuff is radioactive. 
We are finding depleted uranium now, Congressman, in the semen 
of Gulf war veterans. They want to know ``what does this mean? 
Should I have kids?'' This is right in their face. Gen-X, that 
is my generation, the young folks are asking every morning. 
``Do we want to have kids?'' I mean that is a healthcare issue 
right in our face that has implications for generations.
    It also has implications on the experimental anthrax shot 
the Pentagon is using. We need to know what kind of health 
effects that has. Veterans want to know, when is the Pentagon 
going to do some new research on this experimental vaccine? 
They love to say, ``Oh, it is FDA-approved.'' There is no FDA 
approval for the use of a vaccine against an unknown biological 
airborne agent. The Pentagon is lying through their teeth. Now 
what we have to find out is, when are we going to get 
healthcare for the known and unknown, or yet to be known, side-
effects of the use of these experimental vaccines?
    That is what Gulf war veterans want to know in a healthcare 
answer, because the Gulf war was an exotic, toxic soup of 
stuff, and we are waiting for answers, and we are trying to get 
healthcare.
    Thank you, sir.
    Mr. Mica. Thank you, each of you, for your testimony. I 
look forward to working with you. I think this is a good 
beginning and a good opportunity to get an overview, and, 
hopefully, our subcommittee with this new responsibility, can 
be effective. Thank you.
    And I would like to recognize now, the gentleman from 
Indiana.
    Mr. Souder. I thank the chairman.
    One, I wanted just to say up front that I don't believe 
that veterans' benefits ought to be separated or be viewed as 
put in contrast with weapon systems, whether they be anti-
ballistic missile systems or other strong national defense, 
because the last thing we want to do is have any current 
soldier go into war and not have the best plane, the best 
weapons; that is a nightmare. And as a country--as the 
gentleman from the Legion said--we need to make sure that we 
are protected as best as possible, because our goal is 
``peace,'' not ``war,'' and as few wounded veterans and as few 
civilians as possible.
    At the same time, a number of these things, if we don't 
address them, if we don't treat veterans fairly, in addition to 
the equity question, when we are in a voluntary military, it 
becomes a problematic question of how we are going to recruit 
if we are not fair. Or are we going to go back to draft days? 
So, it is not only an equity question, it is a practical 
question that we are facing as a Government.
    We all have many cases in our district. I have had a couple 
that have come up to me with an unusual wrinkle, and I 
wondered, first off, if--I have gone through your testimony. I 
saw a couple of references that were tangential to this, but I 
would appreciate it if you can make some allusions here or 
check back, because it may be something we can actually, 
fundamentally, address, in addition to the broader questions 
that you have raised today.
    One veteran--and it has to do not so much with war-related 
injuries, because while the veterans' facilities are tightening 
down and moving to more outpatient, it seems that if it is a 
direct war-related injury, they are still trying to accommodate 
that. But there are many injuries or health problems that come 
up that weren't directly war-related, and then as they try to 
seek outpatient service, what I have been running into, is 
something like what we seen in senior citizens case of almost 
it is requiring a ``spend down'' of any assets that the 
individual has or using those up before they are eligible for 
care, which wouldn't have happened in a veterans' hospital.
    And, in particular, I had one whose wife was working as a 
greeter at Wal-Mart, but because he had another pension, her 
salary as a greeter at Wal-Mart, part-time, put him over the 
cap, where he would lose his benefits if she didn't quit her 
greeting job. And the argument was that his income sources were 
less than the welfare benefits cap, and that veterans aren't 
even up to what a welfare recipient can earn in the 
discretionary income.
    A similar, but a different variation of this--and then if 
you can comment on these--that another veteran came to me the 
other week where we, I think--it is a similar thing on tax cuts 
and economic growth. Most veterans, after they leave the 
military, have other jobs in the society. So they want to make 
sure our society is functioning, that they have those jobs, but 
then that means, often, that they have other benefits they have 
accumulated which bring in pensions in addition to military 
pensions or sources of income.
    And this person was told--he was, I think, in the veterans' 
hospital for 90 days, but because it wasn't long-term care--it 
wasn't war-related, he now had to leave. The problem was, is to 
get the intensive care that he now needed, it was going to cost 
a large amount of dollars. But because he had assets and a 
pension, he was not eligible for the subsidy because he was 
above the so-called income level. Yet, once he paid his home 
health costs of a constant care, that would use up all of his 
income.
    So part of my question here is, do you hear variations like 
this? Because there are two fixes to this, possibly, at a 
minimum could be. One is, is that the cost of the care related 
to your income should be a calculation. A second should be that 
there is no way a veteran should be treated less than anyone 
else in the society, and wherever we have an income test for 
benefit of eligibility, that the veterans ought to be at the 
high-end of any scale like that, not at the low end.
    Mr. Cullinan. Mr. Souder. In the first instance, you are 
referring to a healthcare benefit?
    Mr. Souder. Yes.
    Mr. Cullinan. It is not supposed to work that way. And we 
have a staff who would be glad--[laughter]--more than happy to 
look into it. It is absolutely not supposed to work that way.
    The second instance, you are touching on the issue of long-
term care. A number of us mentioned earlier, long-term care is 
not mandated under law, and that is the problem. And VA, for 
budgetary reasons, is actually eliminating, paring-down, its 
ability--its already eliminated ability to provide long-term 
care.
    So really the answer is, is to get it mandated under law. 
In other words, we want at least some veterans to be guaranteed 
long-term care, under law. Then, we expect that the 
appropriations support should follow to sustain that.
    You know, second, in the issue--with respect to long-term 
care, there are, given our current budget--what we would prefer 
is, is a guarantee for all veterans long-term care, period. 
Given the current budgetary climate, we are not going to 
realize that soon, so perhaps, then, there are veterans who 
would like to buy into VA as a long-term care provider. We 
would certainly support that effort as well.
    There are certain veterans--if a veteran needs long-term 
care by virtue of a service-connected disability, he or she 
should get it--no co-payments, no means test, nothing. There 
are other veterans, though, who, of course--the veteran 
population is considerably older than the aggregate, than the 
population at large. There are a number of veterans who are 
seeking access to VA's long-term care provider. Right now, they 
are not getting it. As I already mentioned, VA is paring away 
its limited ability to do that. These veterans should be able 
to buy into VA, as a long-term care provider. And there are a 
number of veterans, especially among military retirees, but 
other veterans as well, who are very comfortable with VA and VA 
services. They should have that option.
    Mr. Wannemacher. I would just like to say, Mr. Souder, the 
scenario that you put up, that veteran--right now the VA is 
caring for all categories, whether they are service-connected, 
non-service-connected, multi-millionaires; they can all receive 
healthcare, under the proposal. But what you are referring to, 
that individual that you referred to is classified, because he 
is receiving non-service-connected pension, is classified as a 
category 4. If he exceeded his income, he would be classified 
as a category 7. And, under the current law, categories 7's are 
subject to co-payments, so he would have to pay a co-payment on 
his medical care, and that is probably what the frustration 
was. You know, if my wife works, I am going to be classified as 
a category 7 and, then, not entitled to VA pension and, then, 
be subject to the co-payment.
    And just one thing in your opening statement you said about 
defense and not subjecting veterans to that. There is something 
that you might want to share with your colleagues, that the 
response would be without sacrifices made by veterans, we would 
not have the level of peace and prosperity we enjoy today. The 
President, when he recommended that the virtual integration of 
VA and Department of Defense, when he said that, without 
Defense, there would be no veterans, that is arrogance. That is 
sheer arrogance. This country has to be a backup for DOD. The 
Veterans Administration has to be able to provide the services 
for veterans, and to think that DOD--that veterans owes 
something to DOD is just ludicrous.
    Mr. Robertson. Congressman, the long-term healthcare issue 
is not unique--the problems they are facing are not unique to 
the veterans community. We all know that.
    The American Legion, several years ago--4 years ago--
developed a plan that we called the GI Bill of Health. And it 
sets up the VA healthcare as a network, in which veterans that 
are entitled to healthcare, i.e., service-connected veterans 
and the other categories of veterans that qualify economically, 
et cetera, would get their healthcare covered by the Federal 
Government. All the other veterans, and their dependents, that 
wanted to use the VA healthcare system could buy into the 
system, just like they would be buying healthcare from Great 
West or Aetna or whoever was selling those policies.
    The idea being that veterans would be willing to pay for a 
system that they wanted, a system that they could depend on in 
their golden years, that there would be options for specialized 
services, that if I wanted to buy into a long-term care 
program, I could pay the VA, at the age of 45, start paying 
them, in the event, that somewhere down the road, my wife and I 
would need to be in a long-term care facility. This seems like 
a logical business-like approach to meeting this problem.
    One of the tragedies that we see in the veterans community, 
is that we get a veteran taken care of in a State veterans' 
home, only to have his wife who he has been married to for 60 
years at the other end of the State in a federally subsidized 
home, and the next time they are going to see each other is at 
a funeral.
    That is a tragedy. On the side of a VA hospital it says, 
``to care for him who has borne the battle, and for his widow 
and his orphan.'' We are doing a good job in relative terms 
taking care of the veteran, but those other two are completely 
out of the box.
    And maybe it is time to look at a quasi-Federal Government-
type healthcare system for veterans. Because you remember, 
military retirees--a lot of people forget this--but military 
retirees are veterans, and we have them right now having 
brought battles over in Tricare trying to figure out a place to 
go. And to show you how the Government works, DOD has 
contracted with however many private healthcare companies, for-
profit companies, to run Tricare, when VA has the same type of 
network already in place. So why are we paying a private-sector 
company to refer people back to military healthcare or back to 
veterans healthcare? That just doesn't make sense. We think 
that there can be some headway made in this area, and maybe 
address some of the long-term care problems.
    Mr. Mica. I thank the gentleman from Indiana.
    And I would like to recognize Mr. Filner, from California.
    Mr. Filner. Thank you, and I thank you for your courtesy.
    Just quickly, a lot of these issues will be moot if a 
budget is not adequate, so I think, you know, we all have to 
focus on the budget at this moment. And I would just--I guess 
in the tradition of Mr. Sanders, be very frank. We all have 
flailed the President's budget--Democrat, Republican, all 
VSO's, bipartisan, nonpartisan--but let's get off--the 
President made a suggestion. Budget, by law and Constitution, 
is Congress. He made his ideas, you guys, in my opinion, have 
to move on band. He kept within, by the way, the budget caps 
that the majority of Congress passed. So, it is not his budget, 
it is really the balanced budget's budget.
    I don't see you flailing at the Veterans Affairs Committee 
budget that just came out. I mean the Legion now supports it, 
which, even by the independent budget, is too small. So I think 
we have to turn our attention to the congressional budget and 
start attacking that and making us accountable.
    Steve, you said your members are only 1 percent of the 
population or--I mean the combined, I guess. Just give me those 
2 million people, and I will pass anything in the Congress. You 
guys have incredible power to deal with this issue.
    As I understand the process--and my colleagues can correct 
me if I am wrong--we have a budget resolution. It will be the 
next stage in this process. It looks to me that the leadership 
of the Congress is committed to keeping within the caps that we 
had previously agreed to, which means that we are $3 billion, 
plus, short of what we need for veterans.
    I think your membership has to demand of their 
representatives--I don't care, Republican, Democrat--that they 
don't vote for that resolution unless there is a $3 billion 
increase for veterans. Because what will happen in the 
politics--and you have been all through this many times--if 
there are no changing of those caps, folks are going to use you 
and give lip service to you. They are going to propose ``X'' 
billion dollar increase if we cut the Housing budget, cut the 
EPA budget. So we are all in a completely unattainable 
situation. They are going to pit us, one against another, and 
say, ``Oh, you are not for veterans. You voted to keep the 
EPA.'' And I will make the same argument about the EPA that you 
made about the Defense Department, you know--[laughter]--so 
unless we increase those caps, we are dead, in my opinion. And 
that is coming up next week, I think--at least in the House.
    So I think you have to switch your attention away from the 
President's budget. It has nothing to do with anything right 
now, and say, ``Unless we get $3 billion more in that budget 
resolution to be accountable to you.'' We are all giving lip 
service; everybody is talking the talk. You know, we are all 
for you. But unless they vote against that thing, it doesn't 
mean anything, because there is nothing we can do after that 
vote, except with untenably pitting forces against one another, 
to raise the level of the budget to what we have talked about 
today.
    So, I--that is a political issue; I don't think it is 
partisan, but I think you all have to begin to attack the 
congressional budget--[laughter]--and not the Presidential 
budget, and hold us accountable for that next vote that is 
going to occur.
    Mr. Wannemacher. Congressman, I----
    Mr. Sullivan. Congressman Filner, I would like to be able 
to restate what the Gulf war veterans said.

    We believe the VA needs $3.2 billion more than what was 
proposed by the administration and $1.3 billion more than what 
was approved by the House Veterans Affairs Committee. Since the 
current economic boom created a Federal budget surplus, the VA 
budget cap should be lifted. Flat-lining appropriations during 
war, while expenses soar and the number of patients demanding 
care increases, is a recipe for disaster.

They might as well just close the VA.
    Mr. Wannemacher. Congressman----
    Mr. Filner. I would hope that the other five would agree 
with you. [Laughter.]
    Mr. Wannemacher. We would agree with that, and we, as you 
know, we had our members--we were in town all this weekend, and 
they were all sent out to talk about lifting the caps. And I 
want to tell you that last year, Congress had no problem 
lifting the caps when Transportation identified a need. They 
took away $15 billion from the VA account. We wouldn't be in 
this situation today if it wasn't for what happened last year. 
So we encourage all of you that are still here, and I hope you 
pass it on that the Veterans Administrations appropriations are 
just inadequate and we need additional resources.
    Mr. Sanders. So you are in agreement with what Paul said--
--
    Mr. Wannemacher. Absolutely.
    Mr. Sanders [continuing]. In terms of lifting the caps?
    Mr. Wannemacher. Exactly.
    Mr. Sanders. Is that true for all of you?
    Mr. Cullinan. For our part, we are agitating to lift the 
caps. We have our people addressing that specific issue. You 
may have seen in the Congressional Monitor that we were 
specifically saying, ``Raise the caps.''
    Once again, am I optimistic? We are doing the right thing. 
We are agitating to get those caps lifted. Are we going to do 
it?
    Mr. Sanders. OK. One of the reasons----
    Mr. Robertson. Well, I am the odd man out, because the 
American Legion, last October, testified before a joint session 
of the Veterans Affairs Committee and said that we felt that we 
were $1.9 billion low now, on what our current funding levels 
were. And we asked the President's budget to include that 
increase. We have been consistent with that number. We are at a 
point where we are talking about need versus wants.
    We, in our estimation, believe that the $1.9 is a solid 
figure to meet the current needs of the VA. Does it make the 
best VA in the world? No; but what we are talking about is what 
we need to keep from shutting down hospitals and turning people 
away. Do we need additional funding? Yes. And I, you know, the 
$3 billion number is probably a good number to make us whole 
again.
    And the American Legion started our lobbying efforts last 
October before the budgets were even introduced, and we have 
continued that process. We, too, will have people in this next 
week that will be attending a conference here in Washington. 
But we are using the Internet, we are using our magazines and 
our other publications to make sure that everybody understands 
what needs to be done as far as the appropriations process.
    And just for the record--and I don't think I am speaking 
out of the school--and folks from the independent budget can 
correct me if I am incorrect in my statement. But almost every 
year, the independent budget has been around $2 to $3 billion 
increase request, historically, for the last 10 years that I 
can remember.
    I am sorry, go ahead.
    Mr. Cullinan. I know that this isn't quite the forum for 
this. Actually, a number of years ago, the independent budget's 
baseline was adjusted. And, actually, this touches on a 
question that you posited a little while ago, Mr. Sanders. How 
do we get into this past?
    Perhaps we are trying to be too reasonable; I don't know. 
Perhaps we are trying to be all too reasonable. I think that 
you would say that we are. When we adjusted our baseline, the 
situation then, we were about $6 to $7 billion out of whack 
with reality. For the sake of creditability, that baseline was 
adjusted. Was that wrong? I mean you would say, ``Yes.'' I can 
see you----
    Mr. Sanders. I think I would----
    Mr. Robertson. But that is the problem we have had, is that 
we have had two tiers--what we have been asking for versus what 
we have been getting, and that gap has gotten wider over the 
years to where we are at in the situation we are now.
    So, do we all agree that, yes, we need a lot more money? 
You are absolutely right.
    What we are facing right now is what we are going to be 
able to achieve. We are only talking $1.1 billion difference 
between the two groups of numbers that we are throwing out 
here, but the important thing is that it sets the baseline for 
2001. That is the thing I am concerned about. If we wind up 
getting nothing, then we have got--looking at a $4 billion 
request for next year to make up for the shortfall we had this 
year.
    Mr. Weidman. I just wanted to add in, Mr. Filner, that the 
difference between the $1.9 and the $3.2 billion--there is no 
guarantee that the budget committee is going to come up even 
$1.9 billion. What we are looking for is some leadership out of 
the administration. Our executive directors all met with Vice 
President Gore on Tuesday and said, ``You have to do 
something.'' Frankly, we are not getting that leadership out of 
the Secretary of Veterans Affairs that we have every right to 
expect. Images of Nero come to mind. We need to have the 
leadership of the administration. If the administration decides 
to get into this budget battle as a player, those caps can be 
lifted and, frankly, would make the jobs of those of you who 
are pushing for $3 easier. You would have to break the budget 
cap just to $1.9 billion. We need Presidential leadership on 
this. Forty commitments to harms way in the last 6 years. That 
seems to me to merit a response on the part of the President to 
say, ``Gosh, we goofed on the VA budget. We are going to try to 
get into this and raise the caps and do what is necessary in 
order to start down the road toward fixing this problem.''
    Mr. Filner. I thank the gentleman, and the leadership has 
to come from everywhere, because they are not going to be 
broken, even for the $1.9 billion or $1.1 billion that the 
Senate passed anything, unless we have leadership and your 
folks are politically involved at the grassroots.
    Thank you, Mr. Mica.
    Mr. Mica. Well, I want to thank the panelists of the 
various veterans service organizations for being with us today, 
for helping us launch our effort with this subcommittee which, 
again, is entitled National Security, Veterans Affairs, and 
International Relations.
    I think we have had a good airing of some of the challenges 
that face us, and I tend to be an optimist. I think if we all 
work together that we can make some great progress, 
particularly in this time when we are fortunate, as a Congress 
and a Nation, to have a small, annualized surplus. Certainly, 
our veterans should be first in line as a priority of the 
Congress and the country.
    With there being no further business to come before this 
subcommittee this morning, I call this meeting adjourned.
    [Whereupon, at 10:32 a.m., the subcommittee was adjourned.]

                                  <all>

</pre></body></html>
